     DRUG ENFORCEMENT 

      ADMINISTRATION 

ANNUAL FINANCIAL STATEMENTS 

     FISCAL YEAR 2012 


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 13-10 

              January 2013 

        DRUG ENFORCEMENT ADMINISTRATION

          ANNUAL FINANCIAL STATEMENTS

                FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the Drug
Enforcement Administration (DEA) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG performed the DEA’s audit in
accordance with auditing standards generally accepted in the United States
of America. The audit resulted in an unqualified opinion on the FY 2012
financial statements. An unqualified opinion means that the financial
statements present fairly, in all material respects, the financial position and
the results of the entity’s operations in conformity with U.S. generally
accepted accounting principles. For FY 2011, the DEA also received an
unqualified opinion on its financial statements (OIG Report No. 12-17).

      KPMG also issued reports on internal control over financial reporting
and on compliance and other matters. No instances of non-compliance or
other matters that are required to be reported under Government Auditing
Standards were identified during the audit in the FY 2012 Independent
Auditors’ Report on Compliance and Other Matters. Additionally, DEA’s tests
disclosed no instances in which the DEA financial management systems did
not substantially comply with the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on the DEA’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the DEA’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. KPMG is responsible for the attached auditors’ reports
dated November 5, 2012, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG did not comply, in
all material respects, with auditing standards generally accepted in the
United States of America.
This page intentionally left blank. 

            DRUG ENFORCEMENT ADMINISTRATION

              ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2012


                          TABLE OF CONTENTS


                                                                              PAGE


MESSAGE FROM THE CHIEF FINANCIAL OFFICER......................................1


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................5


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 39


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 41


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 43


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 46


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 47


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 48


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 50


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 51


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 52


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ..................... 88


OTHER ACCOMPANYING INFORMATION


  COMBINED SCHEDULE OF SPENDING ................................................ 93

This page intentionally left blank. 

MESSAGE FROM THE CHIEF FINANCIAL OFFICER


Fiscal year 2012 was another successful year for the Drug Enforcement Administration
in financial management. For the fourteenth consecutive year, we received an
unqualified rclean") audit opinion on our conso lidated financial statements .
Furthermore, our financial statement audit report is completely free of any materia l
weaknesses or significant deficiencies. These audit results are evidence of the hard
work and collaboration among the 308 DEA offices world-wide and our commitment to
sound financial management practices , especial ly in these challenging financial times.

We continued to make improvements in the area of obligation management to account
for our obligations in a more timely and accurate manner. A major contributor to these
improvements was the Obligation Management Module (OMM) which was implemented
this year. Although not mandated , 91 % of DEA allowance managers e lected to use the
automated module which ensures the complete and timely reconciliation of DEA
obligations . Our abil ity to properly manage agency resources is key to the success of
DEA's mission. As a result of our hard work DEA's aud itors did not identify any
significant findings related to the management of obligations.

I am also pleased to report that DEA did not receive any significant deficiencies this
year. Al l issues identified last year in STRIDE reporting have been addressed and
resolved . The collaborative efforts of the Office of Forens ic Sciences , the Office of
Information Systems and the Office of Finance resulted in successfully implementing
changes to the report ing of year end balances .

On behalf of the Administrator and entire Executive Staff, I would like to thank the many
talented and dedicated men and women in DEA who are responsible for this year's
exceptional record . DEA's Sen ior Leadership is keenly aware of the pivotal role financial
management plays in service to our Special Agents and other core personnel. In
particular. I would like to congratulate the financial management staff in Headquarters
and the field for their tireless efforts to maintain solid financial management practices , as
evidenced by the outstanding results of this year's testing , I am privileged to be a part of
this fine community of ind ividuals and I consider this report a reflection of the
outstanding service these dedicated people provide to DEA, day in and day out.




?~
Frank M. Kalder
Chief Financial Officer
November 1, 2012




                                              - 1­
This page intentionally left blank. 





                -2-
Management’s Discussion and Analysis


              Unaudited





              -3-
This page intentionally left blank. 





                -4-
                              U.S. DEPARTMENT OF JUSTICE

                           DRUG ENFORCEMENT ADMINISTRATION

                         MANAGEMENT’S DISCUSSION AND ANALYSIS


MISSION AND ORGANIZATIONAL STRUCTURE

Mission

The mission of the Drug Enforcement Administration (DEA) is to enforce the controlled
substances laws and regulations of the United States (U.S.) and bring to the criminal and civil
justice system of the U.S., or any other competent jurisdiction, those organizations and principal
members of organizations involved in the growing, manufacturing, or distribution of controlled
substances appearing in or destined for illicit traffic in the U.S., including organizations that use
drug trafficking proceeds to finance terror; and to recommend and support enforcement-related
programs aimed at reducing the availability of and demand for illicit controlled substances on
the domestic and international markets.

Organizational Structure of the DEA

The DEA is a component of the Department of Justice (DOJ). It is headed by an Administrator,
who is appointed by the President and confirmed by the Senate. During fiscal year (FY) 2012,
the DEA operated a total of 223 Domestic Offices, which consisted of 21 Domestic Field
Divisions, through which 37 Domestic District Offices, 117 Resident Offices, and 48 Posts of
Duty reported. The DEA also operated 85 Foreign Offices, which consisted of 67 Foreign
Country Offices and 18 Resident Offices in 66 countries. Of the 85 Foreign Offices, nine offices
reported through Domestic Field Divisions (seven through the Caribbean Field Division and two
through the Miami Field Division).

The DEA’s authorized positions for FY 2012 are 11,116 positions, including 5,314 Special
Agents. The chart below provides a breakout of the DEA’s staffing by position category and
compares authorized positions to on-board strength at the end of FY 2012:

                                     FY 2012 Staffing Data 1
                                                                           On-Board Strength
         Position Category             Authorized Positions               September 30, 20122
  Special Agent                                5,314                            4,890
  Diversion Investigator                         626                              588
  Intelligence Specialist                      1,001                              831
  Chemist                                        356                              297
  Support3                                     3,819                            3,055
  TOTAL                                      11,116                             9,661
  1
    Includes 1,309 Organized Crime Drug Enforcement Task Force (OCDETF) Program reimbursable positions,
  one U.S. European Command (USEUCOM), one U.S. Northern Command (USNORTHCOM), one U.S.
  Africa Command (USAFRICOM), one U.S. Special Operations Command (USSOCOM), one Joint Narcotics
  Analysis Center (JNAC), and one National Maritime Intelligence Center (NMIC) reimbursable positions.
  2
    Reflects on-board strength as of Pay Period 19, which ended September 22, 2012. Pay Period 19 is
  classified as the Final Pay Period for FY 2012 by the Office of Personnel Management (OPM) and DOJ.
  3
    Support includes all Professional/Administrative and Technical/Clerical Positions and Employees.

The chart below depicts the Headquarters Offices that report to the Deputy Administrator and/or
the Administrator:




                                                  -5-
                                                    Drug Enforcement Administration

                                                                            ADMINISTRATOR (A)
                                                                            Michele M. Leonhart
                                                                           DEPUTY ADMINISTRATOR
                                                                                   (AD)
                                                                             Thomas M. Harrigan

                                                             EXECUTIVE EQUAL
                                                                                             EXECUTIVE POLICY
                                                             OPPORTUNITY AND
                                                                                                & STRATEGIC
                                                                EMPLOYEE                                                           OFFICE OF
                                                                                              PLANNING STAFF
                                                             ASSISTANCE STAFF                                                   ADMINISTRATIVE
                                                                                                    (ADS)
                                                                   (ADEE)
                                                                                               Kevin C.Whaley                   LAW JUDGES (LJ)
                                                               Oliver C. Allen
                                                                                                                                John J. Mulrooney

                                                                                                OFFICE OF
                                                              OFFICE OF CHIEF                CONGRESSIONAL &
                                                               COUNSEL (CC)                    PUBLIC AFFAIRS
                                                              Wendy H. Goggin                      (CP)
                                                                                               Eric J. Akers
                                                                                                  Acting



                            OPERATIONS                                                                       FINANCIAL                  OPERATIONAL
HUMAN RESOURCES                                                                                            MANAGEMENT                                        INSPECTION
                           DIVISION (OC)       INTELLIGENCE                                                                           SUPPORT DIVISION
   DIVISION (HR)                                                                                                                                             DIVISION (IG)
                             CHIEF OF                                                                       DIVISION (FC)                    (SC)
    ASSISTANT                                   DIVISION (NC)                                                                                              CHIEF INSPECTOR
  ADMINISTRATOR             OPERATIONS                                                                    CHIEF FINANCIAL                 ASSISTANT
                                              Rodney G. Benson                                                OFFICER                                      James M. Kasson
Raymond A. Pagliarini,   Thomas M. Harrigan                                                                                            ADMINISTRATOR
         Jr.                                                                                               Frank M. Kalder             Preston L. Grubbs
                                              OFFICE OF NATIONAL
                         AVIATION DIVISION         SECURITY                                                  OFFICE OF                                        OFFICE OF
 CAREER BOARD                    (OA)          INTELLIGENCE (NN)                                            ACQUISITION                   OFFICE OF        INSPECTIONS (IN)
     (HRC)                Jeffrey B. Stamm        W. Bond Wells                                           MANAGEMENT (FA)              ADMINISTRATION        Kevin M. Foley
  Bruce Travers                                      (Acting)                                              Christinia K. Sisk                (SA)
                                                                                                                                       Mary E. Colarusso
                            OFFICE OF         OFFICE OF SPECIAL
                           OPERATIONS         INTELLIGENCE (NS)                                                                                              OFFICE OF
   BOARD OF              MANAGEMENT (OM)                                                                                                  OFFICE OF
                                                 Arthur A. Doty                                             OFFICE OF                                      PROFESSIONAL
 PROFESSIONAL             David G. Dongilli                                                                                             INFORMATION
                                                                                                           FINANCE (FN)                                    RESPONSIBILITY
 CONDUCT (HRB)                                                                                                                           SYSTEMS (SI)           (OPR)
 Patrick T. Dunn                                                                                          Daniel C. Gillette           Dennis R. McCrary
                             SPECIAL                                                                                                                        Karl C. Colder
                                                    EL PASO
                           OPERATIONS
                                                 INTELLIGENCE
                           DIVISION (OS)
                                                  CENTER (NE)                                               OFFICE OF                      OFFICE OF
    OFFICE OF              Derek S. Maltz
                                                   Matthew R.
 TRAINING (TR)                                                                                              RESOURCE                       FORENSIC          OFFICE OF
                                                   Addington                                                                             SCIENCES (SF)
Jeffrey D. Sweetin          OFFICE OF                                                                      MANAGEMENT                                        SECURITY
                            DIVERSION                                                                           (FR)                    Nelson A. Santos   PROGRAMS (IS)
                           CONTROL (OD)             OCDETF
                             Joseph T.                                                                     Brian G. Horn                                    Mark Mazzei
                            Rannazzisi          FUSION CENTER                                                                                                 (Acting)
                                                     (NF)
                                               Stephen E. Murphy                                                                         OFFICE OF
                         OFFICE OF GLOBAL                                                                                              INVESTIGATIVE
                           ENFORCEMENT                                                                                                  TECHNOLOGY
                                (OE)                                                                                                        (ST)
                            James Soiles                                                                                                  Robert D.
                                                                                                                                          Bargeron
                            OFFICE OF
                            FINANCIAL
                         OPERATIONS (FO)
                          John J. Arvanitis

                                                                        FIELD DIVISIONS & OFFICES                                                          4/2012




                                                                          -6-
FINANCIAL STRUCTURE

In FY 2012, the DEA had available funding in eight different annual, multi-year, and no-year
appropriations. Generally, the DEA’s annual appropriation provides for most, but not all, salaries
and expenses and core program activities, while multi-year and no-year funding provides for a
variety of specialized programs, activities, and functions.

PERFORMANCE INFORMATION

Resources

Under the DOJ Strategic Plan, the DEA’s resources are devoted to the achievement of DOJ
Strategic Goals 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule
of Law, and 2, Prevent Crime, Protect the Rights of the American People, and Enforce Federal
Law.


                              Table 1. Source of DEA Resources
                                    (Dollars in Thousands)

                     Source                            FY 2012         FY 2011          Change %
Earned Revenue:                                       $ 737,003        $ 722,910           2.0%
Budgetary Financing Sources:
Appropriations Received                                 2,035,000          2,019,682        0.8%
Appropriations Transferred In/Out                          27,254             71,029     (61.6)%
Other Adjustments                                         (10,000)            (4,039)   (147.6)%
Other Financing Sources:
Transfers In/Out Without Reimbursement                     (1,374)           14,358     (109.6)%
Imputed Financing From Costs Absorbed by                   80,906            89,229       (9.3)%
Others
  Total                                               $ 2,868,789      $ 2,913,169       (1.5)%


                           Table 2. How DEA Resources are Spent
                                    (Dollars in Thousands)

              Strategic Goal (SG)                      FY 2012         FY 2011          Change %
SG 1. Prevent Terrorism and Promote the
Nation’s Security Consistent with the Rule of Law
                                 Total Gross Cost     $ 111,714        $    106,082       5.3%
                    Less: Total Earned Revenue           12,630                 693     1722.5%
                    Total Net Cost of Operations      $ 99,084         $    105,389      (6.1)%
SG 2. Prevent Crime, Protect the Rights of the
American People, and Enforce Federal Law
                                 Total Gross Cost     $ 2,837,798      $ 2,929,005       (3.1)%
                    Less: Total Earned Revenue            724,373          722,217         0.2%
                    Total Net Cost of Operations      $ 2,113,425      $ 2,206,788       (4.2)%




                                              -7-
FY 2012 Financial Highlights

Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the
Rule of Law, includes the DEA’s membership in the Intelligence Community (IC), a special
investigations unit, support of counterterrorism intelligence inquiries, Afghanistan Foreign-
deployed Advisory and Support Teams (FAST), and the DEA’s enforcement operations in the
Middle East, Central Asia, and Southwest Asia, such as Operation Containment. FY 2012 is the
sixth year that the DEA is scoring resources as Strategic Goal 1. In FY 2012, Goal 1 net costs
decreased by 6.1 percent. Each year, DEA receives a transfer from the Department of State to
support operations in Afghanistan.

Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law includes the majority of the DEA’s enforcement and regulatory activities. In FY
2012, Strategic Goal 2 net costs decreased by 4.2 percent.

Data Reliability and Validity

The DEA views data reliability and validity as critically important in the planning and assessment
of our performance. As such, this document includes a discussion of data validation, verification,
and any data limitations for each performance measure presented. Each Reporting Component
ensures that data reported meets the following criteria:

       At a minimum, performance data are considered reliable if transactions and other data that support reported
       performance measures are properly recorded, processed, and summarized to permit the preparation of
       performance information in accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best performance data possible will
       exceed the value of any data so obtained.

In addition, the DEA was requested to ensure that data reported met the Office of Management
and Budget (OMB) standards for data reliability as presented in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget, Section 230.2 (f), Relationships Between
the Annual Program Performance Report, the Annual Performance Plan, and the Accountability
Report. Based on a review of the OMB standard, the DEA has determined that its performance
data is reliable.

FY 2012 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security Consistent
with the Rule of Law – 4.5 percent of the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

Intelligence and National Security

In recognition of the national security threat that illegal drugs pose to the U.S., the contributions
that the DEA makes in the area of national security, and the continued mandate for increased
intelligence sharing between law enforcement and intelligence agencies, DEA’s Office of
National Security Intelligence (ONSI) was designated a member of the Intelligence Community
(IC) in February 2006.




                                                     -8-
The ONSI is a component of the DEA’s Intelligence Division (NC) within the DEA Headquarters.
ONSI directs and fulfills its responsibilities as a member of the IC while ensuring the separation
of national intelligence and law enforcement information. ONSI’s mission is to share information
as widely as possible with IC partners while ensuring law enforcement investigations or civil
liberties are not compromised. Through the efforts of the ONSI, the DEA fulfills the requirement
to share intelligence mandated by the USA Patriot Act and the Attorney General’s guidelines to
share information. ONSI facilitates full and appropriate intelligence coordination and information
sharing with the other members of the IC and homeland security elements to enhance U.S.
efforts to reduce the supply of drugs, protect national security, and combat global terrorism.

The DEA collection management system, managed through the ONSI, plays a critical role in the
facilitation of information sharing with the IC. The system includes Intelligence Analysts based at
the DEA’s headquarters and in the field who serve as the interface between the IC and the
DEA’s primary law enforcement mission. The collection management system provides the tool
for satisfying internal DEA requirements as well as intelligence requirements from the law
enforcement community, IC, and other information-sharing partners. The ONSI, through its
Collection Requirements Unit, has developed and implemented methodologies for responding to
IC requirements with information derived from law enforcement operations and investigations.
These processes are designed to identify, gather, collate and disseminate information in
response to identified requirements in a structured manner that will maximize the value of the
information to the end user.

Another key component of DEA’s information sharing strategy is its Reports Officers (RO).
DEA’s RO program is the primary mechanism for proactively providing DEA information with a
national security nexus to the IC. This program produces sanitized reports of current national
security related and drug-related investigative information that is shared with the intelligence
community. The ROs systematically review investigative reports received by DEA Headquarters
for information that may be lawfully disclosed to agencies within the IC or other law enforcement
agencies. This information is passed in the form of Intelligence Information Reports (IIRs), DEA
Analytic Reports (DARs) and Drug Intelligence Briefs (DIBs).

Performance Measure: Percentage of IC Requests for Information (RFIs) Provided by the
Requested Deadline

FY 2003 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2004 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2005 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2006 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2007 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2008 Actual Performance                   N/A, Measure first reported in FY 2009.

FY 2009 Actual Performance                   90%

FY 2010 Actual Performance                   85%

FY 2011 Actual Performance                   75%

FY 2012 Target                               100%

FY 2012 Actual Performance                   77%



 Data Collection and Storage: As a result of receiving Requests for Information (RFIs) from a variety of sources,
 including the DEA, IC, and Law Enforcement (LE) partners, the ONSI researches information and develops
 products. These products are internally tracked through an MS Access database. The ONSI also uses a
 SIPERNET-based shared system (FORUM) for customer and field units to track the status of the RFIs. SIPERNET
 is the IT system DEA’s classified infrastructure sits on, and provides the single point of connectivity between DEA
 office for rapid transmission of, and access to, classified investigative intelligence information. The ONSI does not
 maintain any databases of IC or LE partners’ information. The answers to all RFIs are retained in a secure hard
 copy file section at the ONSI.


                                                       -9-
 Data Validation and Verification: Each RFI is validated through the ONSI Collection Requirements Management

 System (CTMS) Unit.

 Data Limitations: None known at this time.


Discussion of FY 2012 Results:

As of September 30, 2012, DEA provided 77 percent of IC RFIs by the requested deadline.
Each year, DEA’s target is to meet 100 percent of the requested deadlines; however, IC
timelines are not sufficient for a proper response. The ONSI Collection Requirements Unit
(NNCC) made significant improvements to its data base that tracks RFIs that come in from the
IC. NNCC automated several collection management functions that will allow ONSI to provide
accurate and timely performance measures to the IC.

Background/Program Objectives:

Enforcement Operations in the Middle East, Central Asia, and Southwest Asia

The DEA expanded its overseas presence to continue investigative efforts against organizations
in the Middle East, Central Asia, and Southwest Asia region and pursue links to foreign terrorist
organizations. The DEA implements administrative, diplomatic, and investigative measures to
reduce the flow of drugs into world markets and dismantle drug-related terrorist activities. The
DEA is currently engaging in proactive enforcement and intelligence gathering operations
targeting the command and control structure of heroin trafficking organizations in the Afghanistan
and Southwest Asia region.

Performance Measure: Disrupt or Dismantle Priority Target Organizations (PTOs) Linked to
Consolidated Priority Organization Targets (CPOT) and Not Linked to CPOTs in the Middle East,
Central Asia and Southwest Asia Regions

FY 2003 Actual Performance               N/A      Measure first reported in FY 2007.
FY 2004 Actual Performance               N/A      Measure first reported in FY 2007.
FY 2005 Actual Performance               N/A      Measure first reported in FY 2007.
FY 2006 Actual Performance               N/A      Measure first reported in FY 2007.
FY 2007 Actual Performance               4        PTOs Disrupted or Dismantled
                                                  (1 Linked to CPOT/ 3 Not Linked to CPOT)
FY 2008 Actual Performance               8        PTOs Disrupted or Dismantled
                                                  (2 Linked to CPOT/ 6 Not Linked to CPOT)
FY 2009 Actual Performance               12       PTOs Disrupted or Dismantled
                                                  (6 Linked to CPOT/ 6 Not Linked to CPOT)
FY 2010 Actual Performance               10       PTOs Disrupted or Dismantled
                                                  (1 Linked to CPOT/ 9 Not Linked to CPOT)
FY 2011 Actual Performance               23       PTOs Disrupted or Dismantled
                                                  (0 Linked to CPOT/ 23 Not Linked to CPOT)
FY 2012 Target                           N/A      DEA does not target its performance in these regions
FY 2012 Actual Performance               34       PTOs Disrupted or Dismantled
                                                  (4 Linked to CPOT/ 30 Not Linked to CPOT)




                                                  - 10 -
                                                 Priority Target Organizations (PTOs)

                                              Middle East, Central Asia, and Southwest Asia

                                                       Disrupted and Dismantled1


                                                                   Non-OCDETF                               Total

    Fiscal Year           PTO Linkages                 PT Os           PT Os                    PT Os         PT Os
                                                                                  T otal                                T otal
                                                      Disrupted     Dismantled                 Disrupted   Dismantled



    FY 2007 Actual   PT Os Linked to CPOT                     0            1               1           0            1            1
                     PT Os Not Linked to CPOT                 1            2               3           1            2            3
                     T otal, FY 2007 Actual                   1            3               4           1            3            4

    FY 2008 Actual   PT Os Linked to CPOT                     0            2               2           0            2            2
                     PT Os Not Linked to CPOT                 2            4               6           2            4            6
                     T otal, FY 2008 Actual                   2            6               8           2            6            8

    FY 2009 Actual   PT Os Linked to CPOT                     5            1               6           5            1            6
                     PT Os Not Linked to CPOT                 4            2               6           4            2            6
                     T otal, FY 2009 Actual                   9            3           12              9            3        12

    FY 2010 Actual   PT Os Linked to CPOT                     1            0               1           1            0            1
                     PT Os Not Linked to CPOT                 6            3               9           6            3            9
                     T otal, FY 2010 Actual                   7            3           10              7            3        10

    FY 2011 Actual   PT Os Linked to CPOT                     0            0               0           0            0            0
                     PT Os Not Linked to CPOT                20            3           23            20             3        23
                     T otal, FY 2011 Actual                  20            3           23            20             3        23

    FY 2012 Actual   PT Os Linked to CPOT                     3            1               4           3            1            4
                     PT Os Not Linked to CPOT                29            1           30            29             1        30
                     T otal, FY 2012 Actual                  32            2           34            32             2        34
1
    Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D).



Data Definition: Disruption means impeding the normal and effective operation of the targeted organization, as
indicated by changes in organizational leadership and/or changes in methods of operation, including, for example,
financing, trafficking patterns, communications or drug production. Disruption Pending Dismantlement means
impeding the normal and effective operation of the targeted organization, but continuing towards the organization’s
complete evisceration such that it is incapable of operating and/or reconstituting itself. Dismantlement means
destroying the organization’s leadership, financial base and supply network such that the organization is incapable of
operating and/or reconstituting itself. The first CPOT List was issued in September 2002, and is updated semi­
annually. The List identifies the most significant international drug trafficking and money laundering organizations
and those primarily responsible for the Nation’s drug supply. Enforcement agencies are focused on identifying links
among disparate domestic drug trafficking and money laundering organizations and on making connections to their
ultimate sources of supply. Investigators continually work up and across the supply chain, with the goal of disrupting
and dismantling the entire network controlled by or supporting a given CPOT organization. An organization is
considered "linked" to a CPOT, if credible evidence exists (i.e., from corroborated confidential source information,
phone tolls, Title III intercepts, financial records, or other similar investigative means) of a nexus between the primary
target of the investigation and a CPOT target. The nexus need not be a direct connection to the CPOT, so long as a
valid connection exists to a verified associate or component of the CPOT organization.
Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC) nominates PTOs in
the Priority Target Activity Resource Reporting System (PTARRS) based on intelligence information. Headquarters
staff ensures that PTOs are tracked and nominations are supported by data and information.
Data Validation and Verification: PTARRS provides its users with a means of electronically proposing, nominating,
reviewing, editing, and tracking PTO investigations, including the PTO’s eventual disruption and dismantlement. The
roles in the electronic approval chain are as follows:
• Special Agent (SA) - The SA, Task Force Officer, or Diversion Investigator collects data on lead cases that will be
proposed as PTOs. They can create, edit, update, and propose a PTO record.


                                                                  - 11 -
• Group Supervisor (GS) – The GS/Country Attaché (CA) coordinates and plans the allocation of resources for a
proposed PTO. The GS/CA can create, edit, update, propose, resubmit, and approve a PTO record.
• Assistant Special Agent in Charge (ASAC) - The ASAC/Assistant Regional Director
(ARD) reviews the PTO proposed and approved by the GS/CA, ensuring that all the necessary information meets the
criteria for a PTO. The ASAC/ARD can also edit, update, resubmit, or approve a proposed PTO.
• Special Agent in Charge (SAC) - The SAC/Regional Director (RD) reviews the proposed PTO from the ASAC/ARD
and is the approving authority for the PTO. The SAC/RD can also edit, update, resubmit, or approve a proposed
PTO.

Headquarters Responsibilities
• Operations Division (OC) – The Section Chief of the Data & Operational Accountability Section (OMD), or his
designee, is the PTO Program Manager, and is responsible for the review of all newly approved PTO submissions
and their assignment to the applicable OE or FO section. The PTO Program Manager may request that incomplete
submissions be returned to the field for correction and resubmission. OMD is also responsible for tracking and
reporting information in the PTO Program through PTARRS; and is the main point-of-contact for the PTO program
and PTARRS related questions.
• OMD will assign PTO’s based on the nexus of the investigation to organizations located in specific geographic
areas of the world, or to specific program areas. After assignment of a PTO, the appointed HQ section becomes the
point-of-contact for that PTO and division/region personnel should advise appropriate HQ section personnel of all
significant activities or requests for funding during the course of the investigation. The Staff Coordinator (SC)
assigned to the PTO will initiate a validation process to include a review for completeness and confirmation of all
related linkages (e.g., CPOTs.) In the unlikely event that the documentation submitted is insufficient to validate
reported linkages the SC will coordinate with the submitting office to obtain the required information.
• All PTO cases that are reported as disrupted or dismantled must be validated by OMD or the OCDETF Section
(OMO). OMD will validate all non-OCDETF related PTO cases and OMO will validate all OCDETF related cases.
These disruptions and dismantlements are reported to the Executive Office of OCDETF via memo by OMO.
Data Limitations: All statistics are limited by a lack of a relational link between case files and enforcement outputs
(e.g., arrest, seizure, and work hour data). The link is inferred through data manipulation, but some areas are prone
to error until all data systems are linked in a relational manner, and errors are prevented through data validation and
referential integrity.



Discussion of FY 2012 Enforcement Operations in the Middle East, Central Asia, and
Southwest Asia Accomplishments:

As of September 30, 2012, the DEA disrupted or dismantled 30 PTO investigations not linked to
CPOT in the Middle East, Central Asia and Southwest Asia Regions.

The DEA is working to establish a permanent presence and develop strong relationships with its
host nation law enforcement counterparts in countries located in this region. As there has been
a link established between terrorists and drug trafficking organizations, the DEA is engaging in
proactive drug enforcement and intelligence gathering operations with its host nation
counterparts by targeting the command and control structure of heroin trafficking organizations
operating in the Middle East, Central Asia, and Southwest Asia region. Through Operation
Containment, (an intensive, multi-national program that attempts to place a security belt around
Afghanistan to prevent processing chemicals from entering and opium and heroin from leaving
the country), the DEA continued to work with countries from Central Asia, the Caucasus, Europe,
and Russia to reduce the heroin flowing out of Afghanistan.

The DEA does not target its performance in these regions. Therefore, the DEA has not
established targets for FY 2012 for disrupting and dismantling foreign PTOs linked and not linked
to CPOT in the Middle East, Central Asia and Southwest Asia. This area of the world poses
significant operational risks and challenges to DEA personnel, which makes it difficult to conduct
enforcement operations on a consistent basis. The DEA cannot unilaterally investigate and
arrest high-level drug traffickers in the foreign arena, so the DEA's success is contingent upon
host nation law enforcement cooperation to include intelligence sharing and participation. Also,
specific countries located in these regions currently lack self-sustaining counternarcotic police


                                                       - 12 -
institutions and effective criminal justice systems to adequately address counter drug efforts. All
of the abovementioned factors make it extremely challenging to project anticipated performance.

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law – 95.5 percent of the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

International and Domestic Enforcement

The DEA is committed to bringing organizations involved in the growing, manufacturing, or
distribution of controlled substances to the criminal and civil justice system of the U.S., or any
other competent jurisdiction. To accomplish its mission, the DEA targets PTOs, which represent
the major drug supply and money laundering organizations operating at the international,
national, regional, and local levels that have a significant impact upon drug availability in the
United States. Specifically, the Priority Targeting Program focuses on dismantling entire drug
trafficking networks by targeting their leaders for arrest and prosecution, confiscating the profits
that fund continuing drug operations, and eliminating international sources of supply. As entire
drug trafficking networks from sources of supply to the distributors on the street are disrupted or
dismantled, the availability of drugs within the United States will be reduced.

PTOs identified by the DEA’s domestic field divisions and foreign country offices are tracked
using the PTARRS, an Oracle database used to track operational progress and the resources
used in the related investigations, (i.e., investigative work hours and direct case-related
expenses). Through PTARRS, the DEA assesses and links PTOs to drug trafficking networks,
which address the entire continuum of the drug conspiracy.

In its effort to target PTOs, the DEA is guided by key drug enforcement programs such as the
Organized Crime Drug Enforcement Task Forces (OCDETF) program. Specifically, the DEA
participated in approximately 85 percent and had the lead or co-lead in approximately 77 percent
of all OCDETF investigations in FY 2012. The DEA, through the OCDETF program, targeted the
drug trafficking organizations on the DOJ’s FY 2012 CPOT list – the “Most Wanted” drug
trafficking and money laundering organizations believed to be primarily responsible for the
Nation’s illicit drug supply.

The disruption or dismantlement of CPOT-linked organizations is primarily accomplished through
multi-agency and multi-regional investigations directed by the DEA and the Federal Bureau of
Investigation (FBI). These investigations focus on the development of intelligence-driven efforts
to identify and target drug trafficking organizations that play a significant role in the production,
transportation, distribution, and financial support of large scale drug trafficking operations. The
DEA’s ultimate objective is to dismantle these organizations so that reestablishment of the same
criminal organization is impossible.

The DEA’s current long-term objective is to maximize the Monetary Value of Currency, Property
and Drugs Seized (Drug Trafficker Revenue Denied). Drug Trafficker Revenue Denied reflects
the outcome of activities scored to DEA’s International, Domestic and State and Local Decision
Units. In FY 2005, the DEA established a five-year plan with annual milestones through FY 2009
to meet the challenge of crippling drug cartels so that they are unable to reconstitute their
operations with new leadership. The DEA planned to continue increasing its asset and drug
seizures until it achieved an annual goal of $3.0 billion in revenue denied to drug trafficking


                                              - 13 -
organizations through new domestic and international seizure strategies, which was reached and
exceeded in FY 2009. Due to the difficult situation created by the current budget environment,
the DEA’s overall funding was reduced and the number of on-board Special Agents decreased in
FY 2012. As a result, the DEA did not meet its ambitious target of $3.0 billion for Drug Trafficker
Revenue Denied with $2.8 billion estimated as of September 30, 2012, representing a shortfall of
7 percent. Drug Trafficker Revenue Denied as of September 30th is an estimate as these data
will be finalized on November 1, 2012.

Performance Measure: Disrupt or Dismantle International and Domestic PTOs Linked to CPOT
Targets and Not Linked to CPOT Targets

FY 2003 Actual Performance                             416 PTOs Disrupted or Dismantled
                                                       (52 Linked to CPOT / 364 Not Linked to CPOT)
FY 2004 Actual Performance                             674 PTOs Disrupted or Dismantled
                                                       (159 Linked to CPOT / 515 Not Linked to CPOT)
FY 2005 Actual Performance                             1,103 PTOs Disrupted or Dismantled
                                                       (282 Linked to CPOT / 821 Not Linked to CPOT)
FY 2006 Actual Performance                             1,244 PTOs Disrupted or Dismantled.
                                                       (231 Linked to CPOT/ 1,013 Not Linked to CPOT)
FY 2007 Actual Performance                             1,431 PTOs Disrupted or Dismantled.
                                                       (194 Linked to CPOT/ 1,237 Not Linked to CPOT)
FY 2008 Actual Performance                             2,087 PTOs Disrupted or Dismantled
                                                       (334 Linked to CPOT / 1,753 Not Linked to CPOT)
FY 2009 Actual Performance                             2,126 PTOs Disrupted or Dismantled
                                                       (355 Linked to CPOT / 1,771 Not Linked to CPOT)
FY 2010 Revised Actual Performance                     2,411 PTOs Disrupted or Dismantled
                                                                           1
                                                       (499 Linked to CPOT / 1,912 Not Linked to CPOT)
FY 2011 Actual Performance                             2,661 PTOs Disrupted or Dismantled
                                                                           2
                                                       (529 Linked to CPOT / 2,132 Not Linked to CPOT)
FY 2012 Target                                         2,490 PTOs Disrupted or Dismantled
                                                       (440 Linked to CPOT / 2,050 Not Linked to CPOT)
FY 2012 Actual Performance                             2,745 PTOs Disrupted or Dismantled
                                                       (519 Linked to CPOT / 2,226 Not Linked to CPOT)




1
  FY 2010: 499 consists of 171 Dismantlements and 328 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be possible to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.

2
  FY 2011: 529 consists of 168 Dismantlements and 361 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be possible to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.




                                                           - 14 -
                                                       International & Domestic Enforcement - Goal 2

                                                                 Disrupted and Dismantled1


                                                              OCDETF                                Non-OCDETF                            Total


     Fiscal Year          PTO Linkages            PTOs       PTOs                         PTOs       PTOs                      PTOs       PTOs
                                                                            Total                                Total                              Total
                                                Disrupted Dismantled                    Disrupted Dismantled                 Disrupted Dismantled




    FY 2003 Actual   PTOs Linked to CPOT2              29            6           35           10            7         17           39          13        52
                     PTOs Not Linked to CPOT          171           85          256           67           41        108          238         126       364
                     Total, FY 2003 Actual            200           91          291           77           48        125          277         139       416
    FY 2004 Actual   PTOs Linked to CPOT              102           20          122           32            5         37          134          25       159
                     PTOs Not Linked to CPOT          204          125          329          121           65        186          325         190       515
                     Total, FY 2004 Actual            306          145          451          153           70        223          459         215       674
    FY 2005 Actual   PTOs Linked to CPOT              132           77          209           47           26         73          179         103        282
                     PTOs Not Linked to CPOT          321          240          561          168           92        260          489         332        821
                     Total, FY 2005 Actual            453          317          770          215          118        333          668         435      1,103

    FY 2006 Actual   PTOs Linked to CPOT              102           48          150           52           29         81          154          77        231
                     PTOs Not Linked to CPOT          406          243          649          214          150        364          620         393      1,013
                     Total, FY 2006 Actual            508          291          799          266          179        445          774         470      1,244

    FY 2007 Actual   PTOs Linked to CPOT               84           49          133           40           21         61          124          70        194
                     PTOs Not Linked to CPOT          485          279          764          325          148        473          810         427      1,237
                     Total, FY 2007 Actual            569          328          897          365          169        534          934         497      1,431

    FY 2008 Actual   PTOs Linked to CPOT              166           52          218           84           32        116           250         84        334
                     PTOs Not Linked to CPOT          737          315        1,052          475          226        701         1,212        541      1,753
                     Total, FY 2008 Actual            903          367        1,270          559          258        817         1,462        625      2,087

    FY 2009 Actual   PTOs Linked to CPOT              129           80          209          105           41        146           234        121        355
                     PTOs Not Linked to CPOT          602          363          965          525          281        806         1,127        644      1,771
                     Total, FY 2009 Actual            731          443        1,174          630          322        952         1,361        765      2,126

    FY 2010 Actual   PTOs Linked to CPOT              178          110          288          150           61        211           328        171        499
                     PTOs Not Linked to CPOT          550          386          936          625          351        976         1,175        737      1,912
                     Total, FY 2010 Actual            728          496        1,224          775          412      1,187         1,503        908      2,411

    FY 2011 Actual   PTOs Linked to CPOT              179          102          281          182           66        248           361        168        529
                     PTOs Not Linked to CPOT          595          359          954          799          379      1,178         1,394        738      2,132
                     Total, FY 2011 Actual            774          461        1,235          981          445      1,426         1,755        906      2,661
                                                          3            3            3           3           3            3
    FY 2012 Target   PTOs Linked to CPOT                                                                                           310        130        440
                                                          3            3            3           3           3            3
                     PTOs Not Linked to CPOT                                                                                     1,410        640      2,050
                                                          3            3            3           3           3            3
                     Total, FY 2012 Target                                                                                       1,720        770      2,490

    FY 2012 Actual   PTOs Linked to CPOT              176           83          259          202           58        260           378        141        519
                     PTOs Not Linked to CPOT          601          347          948          899          379      1,278         1,500        726      2,226
                     Total, FY 2012 Actual            777          430        1,207         1,101         437      1,538         1,878        867      2,745
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements in its reported numbers of PTO disruptions

2
  Not all information concerning direct links between PTOs and CPOT targets is maintained in PTARRS The number of domestic PTOs linked to CPOT targets for
FY 2002 and FY 2003 were identified by an analysis conducted at headquarters In October 2003, PTARRS began to track PTOs with direct links to CPOT targets,
which are identified by the field and validated by headquarters
3
  For planning purposes and the establishment of targets, DEA does not differentiate between OCDETF and non-OCDETF
investigations




                                                                           - 15 -
Data Definition: Disruption means impeding the normal and effective operation of the targeted organization,
as indicated by changes in organizational leadership and/or changes in methods of operation, including, for
example, financing, trafficking patterns, communications or drug production. Disruption Pending
Dismantlement means impeding the normal and effective operation of the targeted organization, but
continuing towards the organization’s complete evisceration such that it is incapable of operating and/or
reconstituting itself. Dismantlement means destroying the organization’s leadership, financial base and
supply network such that the organization is incapable of operating and/or reconstituting itself. The
first CPOT List was issued in September 2002, and is updated semi-annually. The List identifies the most
significant international drug trafficking and money laundering organizations and those primarily responsible
for the Nation’s drug supply. Enforcement agencies are focused on identifying links among disparate
domestic drug trafficking and money laundering organizations and on making connections to their ultimate
sources of supply. Investigators continually work up and across the supply chain, with the goal of disrupting
and dismantling the entire network controlled by or supporting a given CPOT organization. An organization
is considered "linked" to a CPOT, if credible evidence exists (i.e., from corroborated confidential source
information, phone tolls, Title III intercepts, financial records, or other similar investigative means) of a nexus
between the primary target of the investigation and a CPOT target. The nexus need not be a direct
connection to the CPOT, so long as a valid connection exists to a verified associate or component of the
CPOT organization.
Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC) nominates
PTOs in PTARRS based on intelligence information. Headquarters staff ensures that PTOs are tracked and
nominations are supported by data and information.
Data Validation and Verification: PTARRS provides its users with a means of electronically proposing,
nominating, reviewing, editing, and tracking PTO investigations, including the PTO’s eventual disruption and
dismantlement. The roles in the electronic approval chain are as follows:
• Special Agent (SA) - The SA, Task Force Officer, or Diversion Investigator collects data on lead cases that
will be proposed as PTOs. They can create, edit, update, and propose a PTO record.
• Group Supervisor (GS) – The GS/Country Attaché (CA) coordinates and plans the allocation of resources
for a proposed PTO. The GS/CA can create, edit, update, propose, resubmit, and approve a PTO record.
• Assistant Special Agent in Charge (ASAC) - The ASAC/Assistant Regional Director
(ARD) reviews the PTO proposed and approved by the GS/CA, ensuring that all the necessary information
meets the criteria for a PTO. The ASAC/ARD can also edit, update, resubmit, or approve a proposed PTO.
• Special Agent in Charge (SAC) - The SAC/Regional Director (RD) reviews the proposed PTO from the
ASAC/ARD and is the approving authority for the PTO. The SAC/RD can also edit, update, resubmit, or
approve a proposed PTO.

Headquarters Responsibilities
• Operations Division (OC) – The Section Chief of the Data & Operational Accountability Section (OMD), or
his designee, is the PTO
Program Manager, and is responsible for the review of all newly approved PTO submissions and their
assignment to the applicable OE or FO section. The PTO Program Manager may request that incomplete
submissions be returned to the field for correction and resubmission. OMD is also responsible for tracking
and reporting information in the PTO Program through PTARRS; and is the main point-of-contact for the
PTO program and PTARRS related questions.
• OMD will assign PTO’s based on the nexus of the investigation to organizations located in specific
geographic areas of the world, or to specific program areas. After assignment of a PTO, the appointed HQ
section becomes the point-of-contact for that PTO and division/region personnel should advise appropriate
HQ section personnel of all significant activities or requests for funding during the course of the
investigation. The Staff Coordinator (SC) assigned to the PTO will initiate a validation process to include a
review for completeness and confirmation of all related linkages (e.g., CPOTs.) In the unlikely event that the
documentation submitted is insufficient to validate reported linkages the SC will coordinate with the
submitting office to obtain the required information.
• All PTO cases that are reported as disrupted or dismantled must be validated by OMD or OMO. OMD will
validate all non-OCDETF related PTO cases and OMO will validate all OCDETF related cases. These
disruptions and dismantlements are reported to the Executive Office of OCDETF via memo by OMO.
Data Limitations: All statistics are limited by a lack of a relational link between case files and enforcement
outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data manipulation, but some
areas are prone to error until all data systems are linked in a relational manner, and errors are prevented
through data validation and referential integrity.




                                                    - 16 -
Discussion of FY 2012 International and Domestic Enforcement Accomplishments:

As of September 30, 2012, the DEA disrupted or dismantled 2,745 PTOs, which is 10.2 percent
above its FY 2012 target of 2,490. In the current budget environment, this performance is a
testament to the DEA’s commitment to its Priority Targeting Program, which targets the drug
trafficking and/or money laundering organizations having a significant impact on drug availability
within the United States. This includes PTOs with a direct connection to DOJ’s CPOTs, which
include the most significant international command and control organizations threatening the
United States as identified by OCDETF member agencies.

Two recent, significant accomplishments in FY 2012 are as follows:

•	 Operation Log Jam was a DEA-initiated, multi-jurisdictional investigation that targeted a
   group of manufacturers, wholesalers, sub-distributors, and retail distributors involved in the
   illegal distribution of synthetic cannabinoids (commonly referred to as “Spice” or “K2”) and
   synthetic cathinones (commonly referred to as “Bath Salts”). On July 25, 2012, more than
   90 individuals were arrested and more than five million packets of finished designer
   synthetic drugs were seized in the first-ever, nationwide law enforcement action against the
   industry responsible for the production and sale of synthetic drugs. More than $36 million in
   cash was also seized.

•	 On August 20, 2012, the DEA seized $150 million in connection with a civil money
   laundering and forfeiture complaint filed in December 2011. This complaint alleged a
   massive, international scheme in which entities linked to Hezbollah, including the now
   defunct Lebanese Canadian Bank (LCB), used the U.S. financial system to launder
   narcotics trafficking and other criminal proceeds through West Africa and back into Lebanon.
   From approximately January 2007 to early 2011, at least $329 million was transferred by
   wire from LCB and other financial institutions to the U.S for the purchase of used cars that
   were then shipped to West Africa. Cash from the sale of the cars, along with the proceeds of
   narcotics trafficking, were funneled to Lebanon through Hezbollah-controlled money
   laundering channels.

Background/Program Objectives:

National Gang Targeting, Enforcement and Coordination Center (GangTECC/OSG)

DEA’s ongoing efforts to combat violent drug trafficking organizations lead to the restoration of
safer environments for citizens. In furtherance of this effort and in support of the Department’s
Violent Crime Initiatives, on August 3, 2010, DEA and DOJ’s Criminal Division entered into a
Memorandum of Understanding (MOU). Pursuant to the terms of the MOU, DEA agreed to
establish a partnership with the GangTECC in order to enhance the combined abilities of the
partner agencies to coordinate information and enforcement activities to disrupt and dismantle
regional, national, and international gang threats. Specifically, DEA established an
organizational partnership between its Special Operations Division (SOD) Operational Section
for Gangs (OSG) and GangTECC to make SOD resources available to GangTECC in order to
enhance GangTECC capabilities, coordinate existing GangTECC cases/operations, assist in the
initiation of new GangTECC cases and initiatives, and enhance the investigations of regional,
national, and international gang threats by providing operational intelligence and targeting
support.




                                             - 17 -
Performance Measure: NEW MEASURE: Percentage Increase in Gang Arrests Resulting
from Coordination of Gang Investigations

FY 2003 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2004 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2005 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2006 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2007 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2008 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2009 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2010 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2011 Actual Performance                  N/A      Measure first reported in FY 2012.
FY 2012 Target                              2.0%
FY 2012 Actual Performance                  4.4%

   Data Definition: The Defendant Statistical System (DSS) is designated as the database of record for all
   arrest statistics and data. The Case Status System (CAST) is an automated on-line record-keeping system
   for entering, updating, and retrieving information on all DEA case files and general files. Every file opened
   since October 1, 1986 must have a CAST record. CAST also provides authorized users with file status
   statistics and case review scheduling.
   Data Collection and Storage: Statistics associated with DEA’s GangTECC activities are gathered and
   tracked by SOD using our DSS and CAST systems.
   Data Validation and Verification: Data is reviewed by quarters. As a rule however, because our systems
   of record are dynamic, we do not go back and update those data because those statistics are obtained
   immediately after the reporting period closed.
   Data Limitations: None known at this time.

Discussion of FY 2012 Results:

Addressing “Violent Crime” was one of the Attorney General’s FY2012 Primary Goals, and the
GangTECC/OSG Section at the Special Operations Division (SOD) has been fulfilling this
priority goal. Since merging under the operational direction of SOD in FY2010, the GangTECC
section within SOD has been successfully coordinating several high impact gang
operations. After supporting only approximately 100 cases in three years prior to the SOD
merger, under the operational direction of SOD, the GangTECC/OSG Section supported over
800 cases in just its first full year at SOD. Further, in FY2012 with a target of 2% increased
arrests, SOD-supported gang cases (DEA) accounted for 891arrests which represented a 4.4%
increase.

In addition, as part of the GangTECC/OSG mission of coordinating significant local impact
cases, the section also conducts outreach to State and Locals, bringing them into the operations
and providing support. During FY 2012, OSG conducted 34 outreach meetings throughout the
country with Federal, State and Local law enforcement counterparts.

Background/Program Objectives:

State and Local Assistance

The DEA supports State and local law enforcement with methamphetamine-related assistance
and training, which allows State and local agencies to better address the methamphetamine
threat in their communities and reduce the impact that methamphetamine has on the quality of
life for American citizens.




                                                     - 18 -
One of the most critical, specialized training programs offered by DEA to State and local law
enforcement officers is in the area of Clandestine Laboratory Training. Often, it is the State and
local police who first encounter the clandestine laboratories and must ensure that they are
investigated, dismantled, and disposed of appropriately.

The DEA offers five clandestine laboratory training courses: State and Local Clandestine
Laboratory Certification School (SALC), Clandestine Laboratory Site Safety School (SS),
Clandestine Laboratory Tactical Training School (TAC), National Guard Clandestine Laboratory
Safety Certification Course (NG), and a National Improvised Explosive Familiarization (NIEF)
Program for State and Local Bomb Technicians. The NIEF program provides instruction to
state and local participants on the similarities between clan labs and improvised explosives. It is
sponsored by the Federal Bureau of Investigation with DEA Clan Lab Unit assistance.

Performance Measure: Total Number of State and Local Law Enforcement Officers Trained in
Clandestine Laboratory Enforcement

FY 2003 Actual Performance                 1,573
FY 2004 Actual Performance                 1,029
FY 2005 Actual Performance                 1,043
FY 2006 Actual Performance                 1,077
FY 2007 Actual Performance                   952
FY 2008 Actual Performance                   968
FY 2009 Actual Performance                   873
FY 2010 Actual Performance                 1,306
FY 2011 Actual Performance                 1,384
FY 2012 Target                               950
FY 2012 Actual Performance                 1,023

 Data Collection and Storage: The DEA Training Academy receives quarterly training data from the field on training
 provided by Division Training Coordinators (DTC). The field data is combined with the data generated by the DEA’s
 Training Academy for total training provided by the DEA. Data is tabulated quarterly based on the fiscal year.
 Data Validation and Verification: Data is reviewed upon receipt, but only technical or unusual deviations are
 checked.
 Data Limitations: None known at this time.

Discussion of FY 2012 State and Local Assistance Accomplishments:

As of September 30, 2012, DEA trained 1,023 State and local law enforcement officers in
Clandestine Laboratories in FY 2012. The DEA Office of Training exceeded its target of training
950 State and local law enforcement officers in FY 2012 by 7.7 percent.

At the start of the second quarter of FY 2012, the DEA’s Office of Training began to phase out
conducting NEIF Awareness Training with the FBI because DEA received additional funding
through the Community Oriented Policy Services (COPS) program to offer state and local
clandestine laboratory training during FY 2012. This COPS funding is utilized to conduct state
and local clan lab certification, tactical, site safety, and authorized central storage training for
State and Local Law Enforcement Officers.




                                                    - 19 -
Background/Program Objectives:

Diversion Control

The DCP is responsible for carrying out a primary mission of the DEA: to enforce the Controlled
Substances Act (CSA) and its regulations pertaining to pharmaceutical controlled substances
and listed chemicals. The DCP actively monitors more than 1.3 million individuals and
companies that are registered with the DEA to handle controlled substances or listed chemicals
through a system of scheduling, quotas, recordkeeping, reporting, and security requirements.

The DCP implements an infrastructure of controls established through the CSA and ancillary
regulations. This system balances the protection of public health and safety by preventing the
diversion of controlled substances and listed chemicals while ensuring an adequate and
uninterrupted supply for legitimate needs. The DCP conducts and facilitates domestic and
international investigations; plans and allocates program resources; promulgates regulations;
and conducts liaison with industry as well as federal, state, and local counterparts.

The Prescription Drug Abuse Problem

The diversion and abuse of pharmaceutical controlled substances has long been a problem, but
these problems have become more acute in recent years. There are many factors contributing
to the increased abuse of prescription drugs. Many mistakenly believe that abusing prescription
drugs is safer than using illicit street drugs. Prescription drugs are easily obtainable from friends
and family. Moreover, many people are not aware of the potentially serious consequences of
using prescription drugs non-medically.

Over the last several years, national surveys have documented the fact that a significant
number of Americans are abusing controlled substance prescription drugs for nonmedical
purposes. According to the 2010 National Survey on Drug Use and Health (published in
September 2011), 7 million Americans were current non-medical users of psychotherapeutic
drugs. Of that number, 5.1 million Americans abused pain relievers. The survey also indicated
that past-year abuse of prescription drugs was second only to marijuana. Prescription drugs
also ranked just behind marijuana for initiation.

The Centers for Disease Control (CDC) reported that “the number of deaths involving
prescription opioid analgesics increased from roughly 2,900 in 1999 to 7,500 in 2004, an
increase of 158.6 percent in 5 years.” The CDC also reported that unintentional poisoning
deaths attributed to methadone increased from 786 in 1999 to 4,462 in 2005, a 467.7 percent
change, and that unintentional poisoning deaths attributed to psychotherapeutic drugs
increased from 671 in 1999 to 1,300 in 2004, a 93.7 percent change. According to the CDC,
opioid analgesics were involved in almost 40 percent of all poisoning deaths in 2006.
DEA focuses the majority of its investigations on where the diversion occurs the most, at the
pharmacy and practitioner level of the distribution chain. These investigations may include non-
registrants or end users who are involved in large-scale diversion. Other forms of diversion may
include, thefts and robberies from pharmacies, illegal Internet distribution organizations
(individuals and organizations that operate over the Internet and prescribe and dispense
controlled substances without a valid prescription), prescription fraud and doctor shopping.




                                              - 20 -
According to the 2011 Substance Abuse and Mental Health Services Administration’s National
Survey on Drug Use and Health (NSDUH), more than six million Americans abuse prescription
drugs. That same study revealed more than 70 percent of people abusing prescription pain
relievers got them through friends or relatives, a statistic that includes raiding the family
medicine cabinet.

On September 25, 2010, the DEA coordinated the National Take Back Day. Approximately
4,094 collection sites and 2,992 state and local law enforcement agencies participated in this
first-ever nationwide program to remove potentially dangerous controlled substances from our
nation's medicine cabinets. Approximately 121 tons of potentially dangerous drugs were
collected during the one-day event. As stated by then Acting Administrator Michele M.
Leonhart, “This effort symbolizes DEA’s commitment to halting the disturbing rise in addiction
caused by their misuse and abuse. Working together with our state and local partners, the
medical community, anti-drug coalitions, and a concerned public, we will eliminate a major
source of abused prescription drugs, and reduce the hazard they pose to our families and
communities in a safe, legal, and environmentally sound way.”

On April 29, 2011, DEA coordinated the second National Take Back Day. During this one-day
event there were approximately 5,361 sites and 3,923 state and local law enforcement agencies
participating nationwide. Approximately 188 tons of potentially dangerous drugs were collected
for proper disposal.

On October 29, 2011, DEA coordinated a third National Take Back Day and Americans turned
in more than 377,086 pounds (188.5 tons) of unwanted or expired medications for safe and
proper disposal at the 5,327 take-back sites that were available in all 50 states and U.S.
territories.

On April 28, 2012, DEA coordinated the fourth National Take Back Day and Americans turned in
a record breaking 552,161 pounds (276 tons) of unwanted or expired medications at the 5,659
take-back sites that were available in all 50 states and U.S. territories.

On September 29, 2012, coordinated the fifth National Take Back Day and Americans turned in
488,395 pounds (244 tons) of prescription medications from members of the public.

When the results of the five Take Back Days are combined, the DEA, and its state, local, and
tribal law-enforcement and community partners have removed more than 2 million pounds
(1,018 tons) of medication from circulation.

All of the goals, strategies and initiatives supported by the DCP are intended to establish
stronger standards of control, aid in preventing the diversion of pharmaceutical controlled
substances and chemicals, and enhance public safety by building greater accountability and
qualitative reporting requirements into its network of compliance indicators.




                                            - 21 -
Performance Measure: Number of DCP Criminal Case Initiations

FY 2003 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2004 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2005 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2006 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2007 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2008 Actual Performance                     N/A      Measure first reported in FY 2009.
FY 2009 Actual Performance                     627
FY 2010 Actual Performance                     1,011
FY 2011 Actual Performance                     1,900
FY 2012 Target                                 2,291
FY 2012 Actual Performance                     2,079


 Data Definition: DCP criminal case initiations obtained from the DEA’s Case Status Subsystem (CAST) records
 identified by diversion class codes 40 & 50 with fee fundable GDEP codes.
 Data Collection and Storage: During the reporting quarter, the field offices input case data into CAST. The
 reporting of case information is available on a real time basis through SMARTS. CAST enables the DEA to
 maintain all of the historical and investigative information on all individuals and organizations investigated by the
 DEA.
 Data Validation and Verification: The Diversion Investigator and/or Special Agent and the field office Group
 Supervisor (GS) are tasked to ensure that timely and accurate reporting is accomplished as the violator’s or
 registrant’s investigative status changes. The GS, the Diversion Program Manager (DPM) and the Assistant
 Special Agent in Charge (ASAC) have the ability to view the report of ingoing and completed investigation actions
 for their office/division at any time during the quarter or at the quarter’s end, since the actions are in real-time.
 Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary among
 violators, registrants types and jurisdictions. Because there is no adequate methodology for normalizing these
 data we have to rely on the field division’s data validation and verification procedures. Therefore, while the DEA
 acknowledges this data limitation, it asserts that these data have “face” or intrinsic validity due to the quality
 controls in place. The DEA affirms that it will continue to proactively test and evaluate its validation and verification
 procedures in order to ensure the quality and reliability of its data.




                                                        - 22 -
Discussion of FY 2012 Diversion Control Program Accomplishments:

Over the past several years, the Diversion Control Program has been working diligently to
address the growing problem of diversion and prescription drug abuse. Criminal entrepreneurs
have, over the past few years, leveraged technology to advance their criminal schemes and
reap huge profits while diverting millions of dosages of powerful pain relievers such as
hydrocodone. One such method was the use of rogue Internet pharmacies. Investigations
involving Internet pharmacies required the DEA to retool and retrain investigators. Most of
these investigations involved several jurisdictions and involved voluminous amounts of
electronic data. Compounding the problem was the fact that many of the laws under which
investigators worked were written years prior to today’s technological advances.

The DEA also developed and implemented the Distributor Initiative Program designed to
educate and remind registrants of their regulatory and legal responsibilities. This program has
been very successful and has moved the pharmaceutical industry to install new and enhanced
measures to address their responsibilities and due diligence as registrants. Despite these
efforts the prescription drug abuse problem continues to be a major problem. Many state and
local law enforcement agencies have devoted limited, if any resources, in the area of
pharmaceutical diversion. To effectively attack this problem, the DEA, beginning in FY 2009,
began establishing Tactical Diversion Squads (TDS) across the United States to tackle the
growing problem of diversion and prescription drug abuse. These TDS groups, which
incorporate Special Agents, Diversion Investigators and state and local Task Force Officers,
have begun to show very successful investigations. Some of these investigations have resulted
in multi-million dollar seizures. As of the end of FY 2011, 39 of the anticipated 40 TDS groups
were deployed and operational.

The result of all of the above improvements to the DCP has been the increase of the number of
DCP criminal case initiations. The number of criminal cases initiated increased from 1,011 in
FY 2010 to 1,900 in FY 2011. The FY 2011 target for criminal case initiated was 2,036. DEA
fell short of its ambitious target by 7 percent. During FY 2011, DEA refined its methodology for
identifying DCP criminal cases initiated. DEA previously only counted DCP cases that had a
2000 series case file number. DEA now includes non-2000 series case file numbers that have a
fee fundable drug code assigned to them. The target for FY 2012 was 2,291 and the actual was
2,079. As the DCP continues to work to fully staff its TDS groups, DEA expects the target for
criminal cases initiated to be met or exceeded.

Performance Measure: Number of DCP PTOs Disrupted / Dismantled

FY 2003 Actual Performance            25 / 17
FY 2004 Actual Performance            13 / 14
FY 2005 Actual Performance            29 / 20
FY 2006 Actual Performance            36 / 25
FY 2007 Actual Performance            67 / 35
FY 2008 Actual Performance           130 / 66
FY 2009 Actual Performance          114 / 110
FY 2010 Actual Performance          156 / 106
FY 2011 Actual Performance          187 / 159
FY 2012 Target                      205 / 120
FY 2012 Actual Performance          219 / 156




                                            - 23 -
                                                              Priority Target Organizations (PTOs)

                                                                            Diversion

                                                                   Disrupted and Dismantled1


                                                               OCDETF                                   Non-OCDETF                             Total


     Fiscal Year           PTO Linkages            PTOs       PTOs                          PTOs       PTOs                         PTOs       PTOs
                                                                             Total                                    Total                              Total
                                                 Disrupted Dismantled                     Disrupted Dismantled                    Disrupted Dismantled



    FY 2003 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            15            14          29             10               3        13            25         17        42
                     Total, FY 2003 Actual              15            14          29             10               3        13            25         17        42
    FY 2004 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -              1
                     PTOs Not Linked to CPOT             8            10             18             4             4           8         12          14           26
                     Total, FY 2004 Actual               9            10             19             4             4           8         13          14           27
    FY 2005 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -              1
                     PTOs Not Linked to CPOT            17            13             30          11               7        18           28          20           48
                     Total, FY 2005 Actual              18            13             31          11               7        18           29          20           49

    FY 2006 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            18            15          33             18            10          28            36         25        61
                     Total, FY 2006 Actual              18            15          33             18            10          28            36         25        61

    FY 2007 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            30            14          44             37            21          58            67         35       102
                     Total, FY 2007 Actual              30            14          44             37            21          58            67         35       102

    FY 2008 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -           1
                     PTOs Not Linked to CPOT            51            19             70          78            47         125          129          66       195
                     Total, FY 2008 Actual              52            19             71          78            47         125          130          66       196

    FY 2009 Actual   PTOs Linked to CPOT                 1             1              2          1            -             1            2           1         3
                     PTOs Not Linked to CPOT            37            34             71         75             75         150          112         109       221
                     Total, FY 2009 Actual              38            35             73         76             75         151          114         110       224

    FY 2010 Actual   PTOs Linked to CPOT                 1             1              2          1              1           2            2           2         4
                     PTOs Not Linked to CPOT            47            32             79        107             72         179          154         104       258
                     Total, FY 2010 Actual              48            33             81        108             73         181          156         106       262

    FY 2011 Actual   PTOs Linked to CPOT                 2             7              9          1              1           2            3           8        11
                     PTOs Not Linked to CPOT            53            34             87        131            117         248          184         151       335
                     Total, FY 2011 Actual              55            41             96        132            118         250          187         159       346
                                                          2             2             2             2             2           2
    FY 2012 Target   PTOs Linked to CPOT                                                                                               -           -         -
                                                          2             2             2             2             2           2
                     PTOs Not Linked to CPOT                                                                                           205         120       325
                                                          2             2             2             2             2           2
                     Total, FY 2012 Target                                                                                             205         120       325

    FY 2012 Actual   PTOs Linked to CPOT                 5           -                5        -              -           -              5         -           5
                     PTOs Not Linked to CPOT            55            39             94        159            117         276          214         156       370
                     Total, FY 2012 Actual              60            39             99        159            117         276          219         156       375
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements in its reported numbers of PTO disruptions
2
    For planning purposes and the establishment of targets, DEA does not differentiate between OCDETF and non-OCDETF




                                                                                - 24 -
 Data Definition: Disruption means impeding the normal and effective operation of the targeted organization, as
 indicated by changes in organizational leadership and/or changes in methods of operation, including, for example,
 financing, trafficking patterns, communications or drug production. Disruption Pending Dismantlement means
 impeding the normal and effective operation of the targeted organization, but continuing towards the
 organization’s complete evisceration such that it is incapable of operating and/or reconstituting
 itself. Dismantlement means destroying the organization’s leadership, financial base and supply network such
 that the organization is incapable of operating and/or reconstituting itself. The first CPOT List was issued in
 September 2002, and is updated semi-annually. The List identifies the most significant international drug
 trafficking and money laundering organizations and those primarily responsible for the Nation’s drug supply.
 Enforcement agencies are focused on identifying links among disparate domestic drug trafficking and money
 laundering organizations and on making connections to their ultimate sources of supply. Investigators continually
 work up and across the supply chain, with the goal of disrupting and dismantling the entire network controlled by
 or supporting a given CPOT organization. An organization is considered "linked" to a CPOT, if credible evidence
 exists (i.e., from corroborated confidential source information, phone tolls, Title III intercepts, financial records, or
 other similar investigative means) of a nexus between the primary target of the investigation and a CPOT target.
 The nexus need not be a direct connection to the CPOT, so long as a valid connection exists to a verified
 associate or component of the CPOT organization.
 Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC) nominates PTOs
 in PTARRS based on intelligence information. Headquarters staff ensures that PTOs are tracked and
 nominations are supported by data and information.
 Data Validation and Verification: PTARRS provides a means of electronically validating and verifying PTO data
 through the following approval chain:
  * Case Agent - Through PTARRS, the Special Agent (SA) or Diversion Investigator (DI) begins the process by
  creating and proposing a PTO.
  * Group Supervisor (GS) – The GS reviews the PTO proposed by the SA/DI and approves it or sends it back to
  the SA/DI for additional information/clarification.
  * Assistant Special Agent in Charge (ASAC) - The ASAC reviews the PTO approved by the GS. If all of the
  necessary information included in the proposal meets the established criteria for a PTO, the ASAC approves the
  PTO.
  * SAC - The SAC reviews the PTO approved by the ASAC and provides a case assessment for, or against, the
  nomination of the PTO. Once nominated by the SAC, PTARRS generates and saves a unique identification
  number for the nominated PTO.
 * Headquarters – At Headquarters, PTOs nominated by the SAC are assigned to the appropriate section within
 DEA's Office of Global Enforcement (OE). Once assigned, the corresponding OE Staff Coordinator validates all
 information reported on the PTO nomination. The validation process includes a review of the PTO nomination for
 completeness, compliance with established criteria, and confirmation of all related case linkages, including links to
 CPOT targets. Staff Coordinators coordinate with DEA's Special Operations Division and Intelligence Division to
 ensure that available facts exist to support all case linkages. In the unlikely event the documentation submitted is
 insufficient to validate the reported links; the Staff Coordinator will coordinate with the submitting GS to obtain the
 required information.
 Data Limitations: All statistics are limited by a lack of a relational link between case files and enforcement
 outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data manipulation, but some areas
 are prone to error until all data systems are linked in a relational manner, and errors are prevented through data
 validation and referential integrity.



Discussion of FY 2012 Diversion Control Program Accomplishments:

FY 2011 PTO targets are 180/110 respectfully. The actual number of PTOs disrupted and
dismantled in FY 2011 was 187/159 respectfully. As a result of DEA refining its methodology for
identifying DCP PTOs during FY 2011, the actual disruptions/dismantlements exceeded the
established targets significantly. When the FY 2011 targets were initially established, DEA only
counted DCP PTOs that had a 2000 series case file number. DEA now includes non-2000
series case file numbers that have a fee fundable drug code assigned to them. The targets for
FY 2012 are 205/120 respectfully. In FY 2012, DEA exceeded the FY 2012 target with actuals
of 219/156 respectfully.




                                                         - 25 -
Performance Measure: Number of Administrative/Civil/Criminal Sanctions Imposed on
Registrants/Applicants

FY 2003 Actual Performance                   1,040
FY 2004 Actual Performance                   1,122
FY 2005 Actual Performance                   1,138
FY 2006 Actual Performance                   1,212
FY 2007 Actual Performance                   1,261
FY 2008 Actual Performance                   1,601
FY 2009 Actual Performance                   1,557
FY 2010 Actual Performance                   1,519
FY 2011 Actual Performance                   2,110
FY 2012 Target                               1,802
FY 2012 Actual Performance                   2,143


Data Definition: Consists of administrative code 1 (surrender for cause), code 2 (revocation), code 9
(suspension), code D (denial), code R (restriction), Letters of Admonition, Administrative Hearings, and Civil Fines.
Registrants lose or forfeit the DEA Registration or are convicted of a drug felony. Registrants are permanently
denied access to controlled substances pending a reversal of circumstances.
Data Collection and Storage: During the reporting quarter, the Diversion field offices change the status of a
registrant’s CSA II master record to reflect any regulatory investigative actions that are being conducted on the
registrant. The reporting of the regulatory action by each field office is available on a real-time basis through the
reporting system within CSA II as the investigative status changes. The regulatory investigative actions that are
collected in a real-time environment are as follows: letters of admonition/MOU, civil fines, administrative hearings,
orders to show cause, restricted records, suspensions, surrenders for cause, revocations, and applications denied.
The CSA II enables the DEA to maintain all of the historical and investigative information on the DEA registrants. It
also serves as the final repository for a majority of punitive (i.e., sanctions) actions levied against CSA violators.
Data Validation and Verification: The Diversion Investigator and the field office GS are tasked to ensure that
timely and accurate reporting is accomplished as the registrants investigative status changes. Both GS and the
DPM have the ability to view the report of ingoing and completed regulatory investigation actions for their
office/division at any time during the quarter or at the quarter’s end, since the actions are in real-time.
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary among
registrants types and jurisdictions. Because there is no adequate methodology for normalizing these data we have
to rely on Diversion’s data validation and verification procedures. Therefore, while the DEA acknowledges this
data limitation, it asserts that these data have “face” or intrinsic validity due to the quality controls in place.
Diversion affirms that it will continue to proactively test and evaluate its validation and verification procedures in
order to ensure the quality and reliability of its data.



Discussion of FY 2012 Diversion Control Program Accomplishments:

As the DEA continues to focus on more complex, trafficking organizations and the financial
entities that support them, the number of administrative/criminal sanctions will increase. The
DEA’s goal is to dismantle the organizations most responsible for the diversion of
pharmaceuticals and precursor chemicals. In addition, collaborative enforcement efforts among
Federal, State, and local law enforcement agencies and increases in Federal and State
sponsored legislation that target and eliminate the methods previously exploited by diverters,
have driven many of the most egregious elements out of the registrant populations. Between FY
2003 and 2010, the number of administrative/civil/criminal sanctions tracked by DEA have
ranged from 1,040 (FY 2003) to 1,519 (FY 2010). In FY 2010, DEA combined all types of
sanctions and established a new target for FY 2011 of 1,717. In FY 2011, the DEA reported
2,110 administrative/civil/criminal sanctions imposed on its registrants/applicants. The target for
FY 2012 is 1,802 and the actual was 2,143.




                                                      - 26 -
ANALYSIS OF FINANCIAL STATEMENTS HIGHLIGHTS

Financial Statements

The DEA received an unqualified (“clean”) audit opinion from the independent public accounting
firm of KPMG LLP on its FY 2012 financial statements provided on pages 39 and 40. This is the
fourteenth consecutive year the DEA received a clean opinion. This unqualified audit opinion
provides independent assurance to the public that the information presented in the DEA
financial statements is fairly presented, in all material respects, in conformity with U.S. generally
accepted accounting principles.

The following sections provide a discussion and analysis of the financial statements and related
information.

Statement of Net Cost

The Statement of Net Cost presents the DEA’s results of operations. The following table
presents the total results of operations for the last four fiscal years.

                           Net (Cost)/Income (Dollars in Millions)
                       FY 2009           FY 2010         FY 2011             FY 2012
Earned Revenue         $           593   $         678    $            723   $           737
Program Cost           $         (2,739) $      (2,901) $            (3,035) $         (2,950)
Net (Cost)/Income $              (2,146) $      (2,223) $            (2,312) $         (2,213)


The Statement of Net Cost compares fees earned to cost incurred during a specific period of
time.

Intragovernmental Revenues are predominately from reimbursable activity within the
Department of Justice. Intragovernmental Revenues decreased by 7.1 percent from FY 2011 to
FY 2012 from $523M to $486M, respectively. This reduction is due largely to a decrease in
revenue recognized on FY 2011 and FY 2010 subscriber and accessories agreements with
Justice Management Division.

Consolidated Balance Sheet

The Consolidated Balance sheet shows that the DEA’s assets as of September 30, 2012 were
$1,201M, a net decrease of $38M from the FY 2011 balance of $1,239M.

Fund Balance with Treasury was $695M at September 30, 2012, a 1.0 percent decrease from
the FY 2011 balance of $702M. Fund Balance with Treasury represents 57.9 percent of total
assets.

Intragovernmental Accounts Receivable was $52M at September 30, 2012, an 18.2 percent
increase from the FY 2011 balance of $44M due mostly to an increase in accounts receivable of
$6.8M with the Department of State. Intragovernmental Accounts Receivable represents 4.3
percent of total assets.




                                              - 27 -
General Property, Plant, and Equipment decreased 4.7 percent during FY 2012, from $401M to
$382M. General Property, Plant and Equipment represent 31.8 percent of total assets.

Intragovernmental Liabilities were $86M at September 30, 2012, a 14.0 percent decrease from
the FY 2011 balance of $100M. Intragovernmental liabilities represent 9.3 percent of total
liabilities. A large portion of DEA’s Intragovernmental Liabilities, 31.3 percent, consists of
accounts payable with DOJ and GSA. The decrease is due primarily to a reduction in accounts
payable with GSA and Department of Defense.

Liabilities with the public were $837M at September 30, 2012, a 7.3 percent increase from the
FY 2011 balance of $780M. Liabilities with the public represent 90.7 percent of total liabilities.
The increase is largely comprised of a 14.1 percent increase in Deferred Revenue due to a
Diversion fee increase.

Statement of Budgetary Resources

Total budgetary resources for spending are primarily comprised of Congressional authority
appropriated for current year use, as well as fee collections. The following table displays the
DEA’s total budgetary resources over the last four years, with the related percentage change
over the previous year.


                        Budgetary Resources (Dollars in Millions)

                             FY 2009          FY 2010         FY 2011        FY 2012


Budgetary Resources           $        3,067 $          3,276 $       3,160 $         3,144
Percentage Change                      8.81%            6.81%       (3.53%)         (0.51%)

During FY 2012, the DEA’s total budgetary resources available for spending decreased .51
percent from the amount available in FY 2011. DEA incurred a small rescission in FY 2012.
The continued prioritization of limited resources and the stringent monitoring of the execution of
the DEA’s budget enable the DEA to maximize the use of limited resources. The DEA
continues to manage its resources efficiently and effectively to support the mission of the
agency.

Finally, Spending Authority from Offsetting Collections increased from FY 2011 to FY 2012 from
$505M to $525M, as of September 30, 2012. These increases are primarily due to the increase
of $16.2M in unfilled customer orders for a reimbursable agreement with the Department of
State for activities in Afghanistan.




                                              - 28 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Management Controls Program in the DEA

The DEA remains committed to ensuring that funding allocated to combat drug trafficking is
managed effectively and efficiently. The DEA continually evaluates its operations to improve
management practices and the accuracy and soundness of the agency’s financial data. In
accordance with OMB Circular A-123 requirements, DEA performed a comprehensive risk
assessment of the financial and acquisition performance of all 120 allowance managers’
offices. The Inspection Division and Intelligence Division requested that one risk assessment
be performed for all offices within their division. Accordingly, 6 offices were consolidated to their
division level and a total of 114 risk assessments were performed. Based on the results of the
risk assessments, we performed on-site reviews at 8 high risk offices, 31 desk reviews (7
extensive desk reviews and 24 standard desk reviews), and 75 self-certification reviews.

DEA conducted comprehensive on-site reviews at 8 offices, at which time key management
controls were tested. The reviews analyzed source documentation, conducted employee
interviews, performed transaction walk-throughs, and ensured compliance with the DEA’s
Financial and Acquisition Management Policy Manual (FAMPM), as well as applicable laws and
regulations. The review process is part of DEA’s management control program, which is
designed to ensure that DEA’s financial records, systems, and statements fairly present DEA’s
financial position and results of operation. At the conclusion of each review, the team briefed
management on the results of the testing and discussed areas of concern as well as corrective
action recommendations. DEA monitors and tracks all corrective action plans and ensure timely
resolution of deficiencies. The DEA met all DOJ required A-123 deadlines, reporting dates, and
requirements.

The Financial Management Division provided extensive training to emphasize the importance of
internal controls, legal compliance with laws and regulations, as well as provide managers and
staff with the most current and up-to-date financial management policies and procedures. The
following training classes were offered:

   1.	 The Field Division Accountants conducted 14 Unified Financial Management System
       (UFMS) classes within their respective Divisions. This method reduces the amount of
       travel that was necessary to train users across the country. A total of 43 individuals
       were trained.
   2.	 Conducted 5 Operational Advance Holder classes. This class is for
       individuals in foreign offices who maintain an operational advance. Classes were taught
       via Video Teleconference (VTC) or WebEx internet application to reduce travel. A total
       of 19 individuals were trained.
   3.	 Conducted Temporary Duty (TDY) Travel Voucher Preparation Training for
       4 Basic Agent class and 1 Basic Diversion Investigator class. A total of 219 individuals
       were trained.
   4.	 Conducted 3 Foreign Orientation Program (FOP) class for all new
       Permanent Change of Station (PCS) employees. Topics included: PCS travel voucher
       requirements; Relocation Income Tax Allowance; miscellaneous expense allowances;
       foreign payments and cash operations. A total of 153 individuals were trained.
   5.	 Conducted 13 Imprest Fund Cashier classes. Classes were taught via




                                              - 29 -
       Video Teleconference (VTC) or WebEx internet application to reduce the amount of
       travel necessary to train cashiers across the country and in Foreign offices. A total of 85
       individuals were trained.
   6.	 Conducted 5 UFMS classes at DEA Headquarters. The training was
       geared for new users in the HQ commuting area. A total of 14 individuals were trained.
   7.	 Conducted 14 Obligation Management Module (OMM) demonstrations for
       DEA personnel. This new online system allows for all participants in the Undelivered
       Orders reconciliation process to perform their tasks electronically. The 1.5 hour
       demonstration was provided live for HQ personnel and via VTC for those in the Field
       Divisions. A total of 249 individuals were trained.

Quarterly Status Report. As part of Departmental reporting requirements, the DEA prepares a
Quarterly Status Report (QSR) that includes data on obligations, availability of funds, personnel,
performance targets and results, workload targets and results, and progress on outstanding
Federal Managers’ Financial Integrity Act (FMFIA) findings. The QSR has resulted in the timely
identification of problems and the resolution of identified deficiencies. In addition, the QSR has
helped the DEA to meet the preparation, auditing, and submission deadlines for the annual
financial statements.

Managerial Cost Accounting (MCA) System. The MCA provides the DEA with full cost
information that is used to evaluate and report on operations, facilitate decision-making, and
assess performance. Specifically, the MCA integrates DEA costs with DEA performance to
show how the DEA resources are allocated to achieve its mission.

Federal Managers’ Financial Integrity Act of 1982

The FMFIA Act of 1982 provides the statutory basis for management’s responsibility for and
assessment of internal accounting and administrative controls. Such controls include program,
operational, and administrative areas, as well as accounting and financial management. FMFIA
requires federal agencies to establish controls that reasonably ensure that obligations and costs
are in compliance with applicable laws; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are
properly recorded and accounted for to maintain accountability over the assets. FMFIA also
requires agencies to annually assess and report annually on the internal controls that protect
the integrity of federal programs (FMFIA § 2) and whether financial management systems
conform to related requirements (FMFIA § 4).

Guidance for implementing FMFIA is provided through OMB Circular A-123. In addition to
requiring agencies to provide an assurance statement on the effectiveness of programmatic
internal controls and conformance with financial systems requirements, the Circular requires
agencies to provide an assurance statement on the effectiveness of internal control over
financial reporting. The Department requires components to provide both assurance statements
in order to prepare the agency assurance statements.

Management of the DEA is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of the FMFIA. For FY 2012, DEA
assessed its internal control over the effectiveness and efficiency of operations and compliance
with applicable laws and regulations in accordance with OMB Circular A123, Management’s
Responsibility for Internal Control, as required by Section 2 of the FMFIA. Based on the results
of this assessment, DEA can provide reasonable assurance that its internal control over the




                                             - 30 -
effectiveness and efficiency of operations and its compliance with applicable laws and
regulations as of June 30, 2012, was operating effectively. DEA also assessed whether its
financial management systems conform to government-wide requirements. Based on the
results of this assessment, DEA can provide reasonable assurance that there are no non-
conformances that are required to be reported by Section 4 of the FMFIA.

Management of the DEA is also responsible for identifying, designing, operating, maintaining,
and monitoring the existence of an appropriate system of internal control that enables DEA to
report its financial information accurately to the Department and that meets the requirements of
OMB Circular A-123, Appendix A. In accordance with OMB Circular A-123 Implementation Plan,
the Department’s Senior Assessment Team identified the business processes significant at the
Departmental level and at the component level, which comprises a significant share of those
processes. As required by the Department’s FY 2012 Guidance for Implementation of OMB
Circular A-123, DEA has documented significant business processes and tested key controls for
those processes. Based on the results of the assessment, DEA can provide reasonable
assurance that its internal control over financial reporting was operating effectively as of June
30, 2012, with the exception of one reportable condition in the area of sensitive payments. DEA
identified instances when employees did not appropriately apply per diem reductions for meals
provided by the government.

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
federal financial and program managers’ accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of federal programs. FFMIA requires
agencies to have financial managements systems that substantially comply with federal
financial management systems requirements, applicable federal accounting standards, and the
U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, the Act requires
independent auditors to report on agency compliance with the three requirements in the
financial statement audit report. The Federal Information Security Management Act (FISMA)
states that to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

During FY 2012, the DEA assessed its financial management systems for compliance with
FFMIA and determined that they substantially comply with FFMIA. This determination is based
on the results of testing performed in accordance with OMB Circular A-123, Appendix
A. Consideration was also given to any issues identified during the DEA’s financial statement
audit.

Performance Management Scorecards

The DEA developed scorecards based on OMB’s financial management indicators. The
indicators include percentage of electronic payments to vendors, number of invoices paid on
time, amount of late payment interest penalties, and travel and purchase card delinquency
rates. The scorecards are issued quarterly to Special Agents in Charge (SACs) and Office
Heads in 28 headquarters and division offices. The DEA makes on-line reports available, which
allows SACs and Office Heads to track their office’s progress and take corrective action as
necessary to improve performance. At the end of FY 2012, 27 offices were “Green” on the
Performance indicators. The percentage of invoices paid on-time improved from 99.37%
(September 2011) to 99.72% (September 2012), resulting in an overall score of “Green”.




                                              - 31 -
For FY 2012, the DEA undertook an aggressive effort to work with offices to improve financial
performance further by correcting identified deficiencies, with the goal of a “green” rating for all
performance indicators. This effort led to the establishment of the DEA’s Financial Improvement
Team (FITeam) Program. This program is designed to provide fiscal offices with the tools to
achieve and sustain financial management performance improvements. Core service offerings
available from the FITeam include: 1) fiscal process evaluation, improvement and
implementation; 2) staffing and role assignment evaluation so that workload is distributed
appropriately; 3) monitoring of financial transaction and other staff performance metrics. The
FITeam also works with field offices through critical targeted strategic management discussions.

Legal Compliance

Under the FMFIA, DEA is required to submit its FY 2012 Assurance Statement and Sub-
Certification as well as any subsequent updates to DOJ. On August 24, 2012, DEA submitted its
Assurance Statement and Sub-Certification for the 9-month period of October 1, 2011 to June
30, 2012. DEA reported that its programs and administrative activities and financial systems
meet the objectives of Sections 2 and 4 of the FMFIA, The reportable condition identified during
the OMB Circular A-123, Appendix A assessment does not affect DEA’s ability to perform its
mission and functions with efficiency and integrity.

On October 12, 2012, DEA submitted an Update to its FY 2012 Assurance Statement and Sub-
Certification to DOJ for the remaining three months of the fiscal year (July 1, 2012 to September
30, 2012). For the period, DEA reported that its internal control is operating effectively, and
were not aware of any additional reportable conditions or material weaknesses in the design or
operation of internal control over financial reporting.

Improper Payments Elimination and Recovery Act (IPERA) and Circular A-123
Appendix C

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments
through a payment recapture audit program. The approach promotes consistency across the
Department and enhances internal control related to preventing, detecting, and recovering
improper payments. Because of the OMB requirement to assess risk and report payment
recapture audit activities by agency programs, the results of the Department’s risk assessment
and recapture activities are reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, the DEA assessed its
activities for susceptibility to significant improper payments. The DEA also conducted its
payment recapture audit program in accordance with the Departmental approach. The DEA
provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2012 Performance and Accountability
Report.




                                              - 32 -
The DEA has a robust compliance review process in place that is comprised of both internal and
external reviews that are conducted at regular intervals in support of OMB's Circular No. A-136
and the Performance and Accountability Report. DEA’s financial scorecard initiatives include
monitoring payments daily and establishing a review process of all payment documents.
Payments that have been entered into the UFMS with duplicate payment information are
analyzed and flagged based on prior payment history. This oversight process makes it possible
to identify and recoup improper payments in accordance with IPERA and the Prompt Payment
Act. There are daily communications with all the DEA’s offices to ensure that payment
procedures are followed as outlined in the DEA’s FAMPM. Furthermore, the DEA regularly
provides written guidance and assistance to offices to ensure timely and error-free payment
processing.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Factors and Future Trends Affecting the DEA’s Goal Achievement

The challenges that impede progress towards achieving DEA’s goals are complex and ever
changing. Marketplace dynamics, global politics, technological developments, and criminal
behavior are only a few factors that can impact law enforcement practices and pose challenges
that demand attention. DEA faces the following potential obstacles to meeting its performance
objectives in FY 2013:

External Challenges: A significant challenge confronting U.S. law enforcement is the
diminishing ability to conduct lawful electronic intercepts on current and emerging technologies
as domestic and foreign communications providers continue to offer an increasing variety of
sophisticated services and features to U.S. customers. Failure to adequately address this
problem will cripple law enforcement’s ability to conduct lawful interception of communications
and associated transactional data needed to solve serious drug crime.

•	 One of the most pressing resource challenges facing DEA is the availability of future funding
   for DEA’s operations in Afghanistan. To support the U.S. Ambassador’s Counternarcotics
   Strategy for Afghanistan, DEA increased is staffing from 13 to 82 permanent positions.
   However, DEA’s direct appropriation was not increased to fund this enhanced presence.
   Instead, funding for this expansion has evolved into an interagency effort, an arrangement
   that has become inefficient and untenable. DEA is dedicated to continuing its operations at
   this expanded level, but doing so requires a reliable and dedicated source of funding.

•	 As DEA’s law enforcement efforts improve, leaders of drug trafficking organizations are
   finding more sophisticated ways to insulate themselves from the criminal justice system. For
   example, they are using long and complex chains of delivery systems and state-of-the-art
   technology to keep their operations clandestine.

•	 DEA has utilized resources of the Community Oriented Policing Services (COPS) to provide
   assistance to state and local law enforcement for the cleanup of seized methamphetamine
   laboratories and to expand the Authorized Central Storage (ACS) Program to additional
   states.




                                             - 33 -
•	 The smuggling, money remittance, and communications infrastructures utilized by
   international drug and chemical trafficking organizations will continue to provide an
   operational model that can be readily exploited by terrorist organizations.

•	 Source and transshipment regions such as Afghanistan and the continent of Africa continue
   to affect the world, and albeit indirectly, the United States. Even if only a limited quantity of
   these drugs reach the U.S., the proceeds sustain the drug trafficking and terrorist
   organizations, fuel the next round of drug production, and further corrupt and destabilize
   emerging economies and democracies.

•	 Corruption of foreign officials can stymie the DEA’s efforts to affect international
   enforcement. Developing nations also face an inordinate amount of problems (including
   indebtedness, insurgency, corruption, and underdevelopment) in conjunction with drug
   production and trafficking.

•	 The globalization of the social, technical, and economic environments of the United States
   and other nations creates new venues for drug production, transportation, diversion, and
   money laundering techniques.

•	 Recently, efforts to legalize marijuana have increased. Keeping marijuana illegal reduces its
   availability and lessens willingness to use it. Legalizing marijuana would increase
   accessibility and encourage promotion and acceptance of drug use.

•	 Changes in laws could affect the closed system of distribution and allow distribution of
   foreign-sourced controlled substances.

•	 Continued growth in the abuse of legitimate controlled substances could replace or
   supplement illicit drugs. The increase in the abuse of prescription drugs is fueled by many
   factors, including the development and marketing of new pharmaceutical controlled
   substances, and ever-changing methods of diversion, such as rogue internet pharmacy
   schemes or rogue pain clinics. Just as illicit drug traffickers and organizations adapt to law
   enforcement methods, pharmaceutical traffickers adapt to and circumvent laws that attempt
   to stop the flow of controlled substance pharmaceuticals into the illicit market.

Internal Challenges:

•	 Addressing critical infrastructure requirements, including overcrowding at the El Paso
   Intelligence Center (EPIC).

•	 In FY 2011, the Attorney General established hiring caps for special agent and intelligence
   analyst positions, and eliminated the hiring of support staff except for a few high priority
   exemptions. These hiring caps remained in place throughout FY 2012 and have made it
   more difficult for DEA to manage its workforce. DEA must also be sure to enhance career
   development opportunities to ensure effective succession planning in the DEA’s leadership,
   since 75 percent of DEA’s Senior Executives are eligible for retirement at the end of FY
   2012.




                                              - 34 -
•	 It is important for DEA to maintain adequate resources for the Special Operations Division
   (SOD), EPIC, and the Document and Media Exploitation (DOMEX) and strategic intelligence
   functions transferred from the National Drug Intelligence Center (NDIC) 3. This will facilitate
   complete and timely sharing of information and intelligence with law enforcement and IC
   partners.

•	 DEA is constantly working to strengthen existing partnerships and to build new ones with
   Federal, state, local, and international counterparts.


LIMITATIONS OF THE FINANCIAL STATEMENTS

The financial statements have been prepared to report the financial position and results of
operations of the DEA, pursuant to the requirements of the 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the DEA in
accordance with U.S. generally accepted accounting principles for federal entities and the
formats prescribed by OMB, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




3
  As directed by the Consolidated and Further Continuing Appropriations Act, 2012 (P.L. 112-55), the Department
of Justice initiated the closure of NDIC in Johnstown, PA. Core NDIC functions have been reassigned to DEA’s
intelligence program. The Department authorized 57 new positions and associated resources for DEA to continue
DOMEX and high-priority strategic intelligence reporting.




                                                    - 35 -
This page intentionally left blank.




               - 36 -
Independent Auditors’ Reports





          - 37 -
This page intentionally left blank.




               - 38 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Administrator
Drug Enforcement Administration
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Justice Drug Enforcement Administration (DEA) as of September 30, 2012 and 2011, and the
related consolidated statements of net cost and changes in net position, and the combined
statements of budgetary resources and custodial activity (hereinafter referred to as “consolidated
financial statements” or “basic financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the DEA’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
audits to obtain reasonable assurance about whether the consolidated financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the DEA’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Justice Drug Enforcement
Administration as of September 30, 2012 and 2011, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 1.W to the consolidated financial statements, the DEA changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012,




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                      - 39 -
based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements. As a result, the DEA’s combined statement of budgetary resources for fiscal year
2011 has been adjusted to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in Required
Supplementary Information, including Management’s Discussion and Analysis, be presented to
supplement the basic financial statements. Such information, although not a part of the basic
financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial statements
in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency
with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements as a whole. The information in the Other Accompanying Information section is
presented for the purpose of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the
audits of the basic financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 5, 2012, on our consideration of the DEA’s internal control over financial reporting
and our tests of its compliance with certain provisions of laws, regulations, contracts, and other
matters. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in assessing the results of our audits.




November 5, 2012




                                                - 40 -
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




       Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Administrator
Drug Enforcement Administration
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Drug
Enforcement Administration (DEA) as of September 30, 2012 and 2011, and the related
consolidated statements of net cost and changes in net position, and the combined statements of
budgetary resources and custodial activity (hereinafter referred to as “consolidated financial
statements”) for the years then ended, and have issued our report thereon dated November 5,
2012. As discussed in Note 1.W to the consolidated financial statements, the DEA changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012,
based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
audits to obtain reasonable assurance about whether the consolidated financial statements are
free of material misstatement.

The management of the DEA is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our fiscal year 2012 audit, we
considered the DEA’s internal control over financial reporting by obtaining an understanding of
the DEA’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the consolidated financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the DEA’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness
of the DEA’s internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                      - 41 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2 of 2




prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the third paragraph of this report and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2012 audit, we did not identify any deficiencies in
internal control over financial reporting that we consider to be material weaknesses, as defined
above.

This report is intended solely for the information and use of the DEA’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




November 5, 2012




                                               - 42 -
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




             Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Administrator
Drug Enforcement Administration
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Drug
Enforcement Administration (DEA) as of September 30, 2012 and 2011, and the related
consolidated statements of net cost and changes in net position, and the combined statements of
budgetary resources, and custodial activity (hereinafter referred to as “consolidated financial
statements”) for the years then ended, and have issued our report thereon dated November 5,
2012. As discussed in Note 1.W to the consolidated financial statements, the DEA changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012,
based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
audit to obtain reasonable assurance about whether the consolidated financial statements are free
of material misstatement.

The management of the DEA is responsible for complying with laws, regulations, and contracts
applicable to the DEA. As part of obtaining reasonable assurance about whether the DEA’s
consolidated financial statements are free of material misstatement, we performed tests of the
DEA’s compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance
to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the DEA. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                      - 43 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2 of 2




The results of our tests of compliance described in the preceding paragraph, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required
to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the DEA’s financial
management systems did not substantially comply with the (1) federal financial management
system requirements, (2) applicable federal accounting standards, and (3) application of the
United States Government Standard General Ledger at the transaction level.

This report is intended solely for the information and use of the DEA’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




November 5, 2012




                                             - 44 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 45 -
                                              U.S. Department of Justice

                                          Drug Enforcement Administration

                                            Consolidated Balance Sheets

                                          As of September 30, 2012 and 2011




Dollars in Thousands                                                           2012              2011

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                         $      694,616     $    702,470
         Accounts Receivable, Net (Note 5)                                        51,930           43,655
         Other Assets (Note 9)                                                    32,442           47,061
     Total Intragovernmental                                                     778,988          793,186

       Cash and Monetary Assets (Note 4)                                           15,337           16,575
       Accounts Receivable, Net (Note 5)                                            5,397            5,998
       Inventory and Related Property, Net (Note 6)                                 7,588            7,506
       General Property, Plant and Equipment, Net (Note 8)                        381,780          401,220
       Advances and Prepayments                                                    12,030           14,700
Total Assets                                                              $     1,201,120    $   1,239,185

LIABILITIES (Note 10)
      Intragovernmental
          Accounts Payable                                                $       35,216     $     46,943
          Accrued Federal Employees' Compensation Act Liabilities                 27,152           27,222
          Custodial Liabilities (Note 19)                                          3,781            5,199
          Other Liabilities (Note 13)                                             20,095           20,766
      Total Intragovernmental                                                     86,244          100,130

       Accounts Payable                                                           85,690           92,054
       Actuarial Federal Employees' Compensation Act Liabilities                 158,435          149,846
       Accrued Payroll and Benefits                                               64,151           63,094
       Accrued Annual and Compensatory Leave Liabilities                          98,986           98,437
       Deferred Revenue                                                          409,396          358,742
       Seized Cash and Monetary Instruments (Note 12)                                450              440
       Contingent Liabilities (Note 14)                                            8,968            7,754
       Other Liabilities (Note 13)                                                10,555            9,720
Total Liabilities                                                         $      922,875     $    880,217

NET POSITION
       Unexpended Appropriations - All Other Funds                        $       499,366    $     503,763
       Cumulative Results of Operations - Earmarked Funds (Note 15)              (285,887)        (232,162)
       Cumulative Results of Operations - All Other Funds                          64,766           87,367
Total Net Position                                                        $       278,245    $     358,968

Total Liabilities and Net Position                                        $     1,201,120    $   1,239,185




    ___________________________________________________________________________________________
                    The accompanying notes are an integral part of these financial statements.

                                                        - 46 -
                                                                 U.S. Department of Justice

                                                             Drug Enforcement Administration

                                                           Consolidated Statements of Net Cost

                                                 For the Fiscal Years Ended September 30, 2012 and 2011





         Dollars in Thousands

                                              Gross Costs                                        Less: Earned Revenues                    Net Cost of
                           Intra­                With the                                 Intra-        With the                          Operations
            FY          governmental              Public                 Total         governmental      Public            Total           (Note 16)

Goal 1     2012     $              17,534    $           94,180    $        111,714    $        12,630   $        -    $     12,630   $         99,084
           2011     $              15,196    $           90,886    $        106,082    $           687   $        6    $        693   $        105,389

Goal 2     2012                  892,256              1,945,542           2,837,798            473,274       251,099        724,373          2,113,425
           2011                  907,038              2,021,967           2,929,005            521,896       200,321        722,217          2,206,788

Total      2012     $            909,790     $        2,039,722    $      2,949,512    $       485,904   $   251,099   $    737,003   $      2,212,509
           2011     $            922,234     $        2,112,853    $      3,035,087    $       522,583   $   200,327   $    722,910   $      2,312,177


Goal 1   Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law




                        _________________________________________________________________________________________
                                       The accompanying notes are an integral part of these financial statements.

                                                                          - 47 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                            Consolidated Statements of Changes in Net Position 

                              For the Fiscal Year Ended September 30, 2012



Dollars in Thousands

                                                                                    2012
                                                             Earmarked           All Other
                                                               Funds              Funds             Total

Unexpended Appropriations
   Beginning Balances                                        $          -    $      503,763    $     503,763

   Budgetary Financing Sources
      Appropriations Received                                           -         2,035,000         2,035,000
      Appropriations Transferred-In/Out                                 -            27,254            27,254
      Other Adjustments                                                 -           (10,000)          (10,000)
      Appropriations Used                                               -        (2,056,651)       (2,056,651)

   Total Budgetary Financing Sources                                    -            (4,397)           (4,397)

   Unexpended Appropriations                                 $          -    $      499,366    $     499,366

Cumulative Results of Operations
   Beginning Balances                                        $   (232,162)   $       87,367    $    (144,795)

   Budgetary Financing Sources
      Appropriations Used                                               -         2,056,651        2,056,651

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                            -            (1,374)           (1,374)
      Imputed Financing from Costs Absorbed
          by Others (Note 17)                                       9,419            71,487           80,906

   Total Financing Sources                                          9,419         2,126,764        2,136,183

   Net Cost of Operations                                         (63,144)       (2,149,365)       (2,212,509)

   Net Change                                                     (53,725)          (22,601)         (76,326)

   Cumulative Results of Operations                          $   (285,887)   $       64,766    $    (221,121)

Net Position                                                 $   (285,887)   $      564,132    $     278,245




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.
                                                 - 48 -
                                     U.S. Department of Justice

                                 Drug Enforcement Administration

                         Consolidated Statements of Changes in Net Position

                           For the Fiscal Year Ended September 30, 2011



Dollars in Thousands

                                                                                2011
                                                          Earmarked           All Other
                                                            Funds              Funds             Total

Unexpended Appropriations
   Beginning Balances                                     $           -   $      559,167    $     559,167

   Budgetary Financing Sources
       Appropriations Received                                        -        2,019,682         2,019,682
       Appropriations Transferred-In/Out                              -           71,029            71,029
       Other Adjustments                                              -           (4,039)           (4,039)
       Appropriations Used                                            -       (2,142,076)       (2,142,076)

   Total Budgetary Financing Sources                                  -          (55,404)         (55,404)

   Unexpended Appropriations                              $           -   $      503,763    $     503,763

Cumulative Results of Operations
   Beginning Balances                                     $   (159,279)   $       80,998    $     (78,281)

   Budgetary Financing Sources
       Appropriations Used                                            -        2,142,076        2,142,076

   Other Financing Sources
        Transfers-In/Out Without Reimbursement                        -           14,358           14,358
        Imputed Financing from Costs Absorbed
            by Others (Note 17)                                  9,396            79,833           89,229

   Total Financing Sources                                       9,396         2,236,267        2,245,663

   Net Cost of Operations                                      (82,279)       (2,229,898)       (2,312,177)

   Net Change                                                  (72,883)            6,369          (66,514)

   Cumulative Results of Operations                       $   (232,162)   $       87,367    $    (144,795)

Net Position                                              $   (232,162)   $      591,130    $     358,968




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.
                                                 - 49 -
                                             U.S. Department of Justice
                                          Drug Enforcement Administration
                                   Combined Statements of Budgetary Resources
                                  For the Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                2012             2011

Budgetary Resources


 Unobligated Balance, Brought Forward, October 1                                $    158,292     $    223,391


 Recoveries of Prior Year Unpaid Obligations                                          114,289          102,053
 Other Changes in Unobligated Balance                                                      21           33,854
 Unobligated Balance from Prior Year Budget Authority, Net                            272,602          359,298
 Appropriations (discretionary and mandatory)                                       2,346,455        2,295,492
 Spending Authority from Offsetting Collections (discretionary and mandatory)         525,323          505,291
Total Budgetary Resources                                                       $   3,144,380    $   3,160,081

Status of Budgetary Resources
 Obligations Incurred (Note 18)                                                     2,976,982        3,001,789
 Unobligated Balance, End of Period:
   Apportioned                                                                        127,526          118,503
   Unapportioned                                                                       39,872           39,789
 Total Unobligated Balance - End of Period                                            167,398          158,292
Total Status of Budgetary Resources                                             $   3,144,380    $   3,160,081


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations, Gross                                                    $     712,030    $     777,043
   Less: Uncollected Customer Payments from Federal Sources                           157,357          181,976
        Total Obligated Balance, Net - Brought Forward, October 1                     554,673          595,067
 Obligations Incurred                                                               2,976,982        3,001,789
 Less: Outlays, Gross                                                               2,852,539        2,964,749
 Change in Uncollected Customer Payments from Federal Sources                         (28,576)          24,619
 Less: Recoveries of Prior Year Unpaid Obligations                                    114,289          102,053

 Obligated Balance, Net - End of Period
   Unpaid Obligations, Gross                                                         722,184          712,030
   Less: Uncollected Customer Payments from Federal Sources                          185,933          157,357
 Total Obligated Balance, Net - End of Period                                   $    536,251     $    554,673


Budgetary Authority and Outlays, Net
 Budget Authority, Gross (discretionary and mandatory)                              2,871,778        2,800,783
 Less: Actual Offsetting Collections (discretionary and mandatory)                    496,747          529,910
 Change in Uncollected Customer Payments from Federal Sources
   (discretionary and mandatory)                                                      (28,576)          24,619
 Budget Authority, Net (discretionary and mandatory)                            $   2,346,455    $   2,295,492

 Outlays, Gross (discretionary and mandatory)                                   $   2,852,539    $   2,964,749
 Less: Actual Offsetting Collections (discretionary and mandatory)                    496,747          529,910
 Outlays, Net (discretionary and mandatory)                                         2,355,792        2,434,839
 Less: Distributed Offsetting Receipts                                                295,736          243,616
 Agency Outlays, Net (discretionary and mandatory)                              $   2,060,056    $   2,191,223




            ______________________________________________________________________________
                     The accompanying notes are an integral part of these financial statements.
                                                        - 50 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                               Combined Statements of Custodial Activity

                        For the Fiscal Years Ended September 30, 2012 and 2011




Dollars in Thousands                                              2012            2011

Revenue Activity

 Sources of Cash Collections
    Fees and Licenses                                         $   15,000     $     15,000
    Fines, Penalties and Restitution Payments - Civil             12,595           82,268
        Total Cash Collections                                    27,595           97,268

 Accrual Adjustments                                               (1,418)          3,617

 Total Custodial Revenue                                          26,177          100,885

Disposition of Collections
  Transferred to Federal Agencies
      Department of the Treasury                                (27,595)       (97,268)
  (Increase)/Decrease in Amounts Yet to Be Transferred            1,418         (3,617)
Net Custodial Activity (Note 19)                              $       -      $       -




       ______________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.

                                                   - 51 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies

      A. Reporting Entity

     Drug Enforcement Administration (DEA or the agency), a bureau within the Department of
     Justice (DOJ or the department), is the lead agency responsible for the development of
     overall federal drug enforcement strategy, programs, planning, and evaluations. The DEA
     was created on July 1, 1973, as a result of the Presidential Reorganization Plan No. 2 of
     1973. The DEA’s mission is to enforce the United States’ controlled substances laws and
     regulations and to bring to justice individuals involved in the growing, manufacturing, or
     distribution of controlled substances appearing in or destined for illicit traffic in the U.S.
     The DEA is also responsible for recommending and supporting non-enforcement programs
     aimed at reducing the availability of illicit controlled substances in domestic and
     international markets.

     B. Basis of Presentation

     The accompanying financial statements were prepared to report the DEA’s financial
     position, net cost of operations, changes in net position, budgetary resources, and custodial
     activity as of and for the years ended September 30, 2012 and 2011. These financial
     statements include the following funds which are under the DEA’s control: appropriated
     annual, multi-year, and no-year Salary and Expense; appropriated no-year Construction;
     Diversion Control offsetting authority; and the Violent Crime Reduction Trust Fund.
     These financial statements represent the financial results of these funds. All DEA activities
     are conducted under Office of Management and Budget’s (OMB) Budget Functional
     Classification code 750 – Administration of Justice.

      These financial statements have been prepared from the books and records of the DEA in
      accordance with U.S. generally accepted accounting principles issued by the Federal
      Accounting Standards Advisory Board (FASAB) and presentation guidelines in the OMB
      Circular A-136, Financial Reporting Requirements. These financial statements are
      different from the financial reports prepared pursuant to OMB directives which are used to
      monitor and control the use of the DEA’s budgetary resources. To ensure that the DEA’s
      financial statements are meaningful at the entity level and to enhance reporting consistency
      within the Department, Other Assets and Other Liabilities as defined by OMB Circular A­
      136 have been disaggregated on the balance sheet.




                                            - 52 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

     In OMB Circular A-136 Advances and Prepayments are considered Other Assets, and
     Accrued Federal Employees’ Compensation Act (FECA) Liabilities, Custodial Liabilities,
     Accrued Payroll and Benefits, Contingent Liabilities, Accrued Annual and Compensatory
     Leave Liabilities, Deferred Revenue, and Seized Cash and Monetary Instruments are
     considered Other Liabilities.

     C. Basis of Consolidation

     The consolidated/combined financial statements include the accounts of the DEA. All
     significant proprietary intra-entity transactions and balances have been eliminated in
     consolidation. The Statements of Budgetary Resources and Statements of Custodial
     Activity are combined statements for FYs 2012 and 2011, and as such, intra-entity
     transactions have not been eliminated. The consolidated financial statements do not
     include centrally administered assets and liabilities of the Federal Government as a whole,
     such as General Services Administration (GSA) owned property and equipment and
     borrowings from the public by the U.S. Treasury, which may in part be attributable to the
     DEA.

     D. Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the
     accrual basis, revenues are recorded when earned and expenses are recorded when
     incurred, regardless of when cash is exchanged. Under the budgetary basis, however,
     funds availability is recorded based upon legal considerations and constraints. As a result,
     certain line items on the proprietary financial statements may not equal similar line items
     on the budgetary financial statements.

     E. Non-Entity Assets

     Included in the assets reported in the accompanying balance sheets are non-entity assets.
     Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
     of the DEA’s non-entity assets are with the public and consist primarily of seized monetary
     assets, cash generated from Attorney General Exempt Operations, and cash generated from
     Trafficker Directed Funds Activities. These assets cannot be used to satisfy the DEA’s
     obligations.




                                            - 53 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      F. Fund Balance with U.S. Treasury and Cash

      Generally, the U. S. Treasury processes cash receipts and disbursements. The DEA’s Fund
      Balance with the U.S. Treasury consists of appropriated funds that are available to pay
      current liabilities and finance authorized commitments. The DEA does not have disbursing
      authority. The DEA maintains a small amount of cash in commercial banks to facilitate the
      replenishment of the Agency’s imprest funds.

      G. Accounts Receivable

      Accounts receivable result from amounts due from federal agencies, public organizations,
      or individuals. Receivables due from federal agencies consist of reimbursable agreements
      for services provided by the DEA and are considered to be fully collectible.

      Receivables due from public organizations or individuals consist of refunds, restitutions,
      licensing fees, and civil monetary penalties. An allowance for uncollectible accounts is
      established for these receivables when it is more likely than not the receivables will not be
      totally collected. The allowance is measured based on analysis of both individual accounts
      and a group of accounts taken as a whole.

      H. Inventory and Related Property

      The DEA maintains an inventory of aviation parts and supplies in support of its aviation
      operations. The aviation inventory is valued at historical cost. Repairable parts are broken
      or expended parts that have been removed from DEA aircraft. Repairable parts are
      inoperable and may eventually be repaired, overhauled, discarded, or traded for “core”
      value against a new or rebuilt part. Repairable parts are valued at zero dollars.




                                             - 54 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      I. General Property, Plant and Equipment

     In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 6,
     Accounting for Property, Plant, and Equipment and No. 10, Accounting for Internal Use
     Software, the DEA reports assets at historical cost or their estimated fair value if acquired
     through means other than purchase. The DEA capitalizes administrative and technical
     investigative equipment, vehicles, boats, and capital leases that have a total cost of $25 or
     greater. Buildings, construction-in-progress (CIP), leasehold improvements, and aircraft
     are capitalized when their total cost is $100 or greater. Land is capitalized regardless of the
     acquisition cost. Betterments that extend the useful life of an asset are also capitalized.
     The cost of minor enhancements resulting from ongoing systems maintenance is expensed
     in the period incurred. Also, the purchase of enhanced versions of software for a nominal
     charge are properly expensed in the period incurred. Internal use software is capitalized
     when the development cost or purchase price exceeds $500. Repairs and maintenance
     costs are expensed. Capitalized assets (other than land, CIP, and internal use software in
     development) are depreciated or amortized over useful lives ranging from 5 to 50 years
     using a straight-line method.

      J. Advances and Prepayments

      The DEA’s advances and prepayments consist of funds disbursed to other federal agencies
      in advance of receipt of goods or services, advances to state and local entities that
      participate in the Domestic Cannabis Eradication and Suppression Program, and travel
      advances issued to federal employees. Travel advances are limited to meals and incidental
      expenses incurred by federal employees during official travel. Advances and prepayments
      are recorded as an asset and are expensed when the related goods or services are received.
      Advances and prepayments involving other Federal agencies are classified as Other Assets
      on the balance sheet (Note 9).




                                            - 55 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      K. Forfeited and Seized Property

     The DEA routinely seizes property as part of its law enforcement activities. All property
     seized for forfeiture is reported by the DOJ’s Assets Forfeiture Fund, including property
     that has evidentiary value. As required by SFFAS No. 3, Accounting for Inventory and
     Related Property, seized monetary assets held for evidence by the DEA are recorded as
     assets with an offsetting liability. Non-monetary assets held for evidence are disclosed in a
     footnote to the financial statements at appraised or market value with the exception of
     firearms which are disclosed according to the number of firearms added, disposed, and on-
     hand. Firearms are held until they are no longer needed as evidence and then destroyed.
     DEA uses a one thousand dollar reporting threshold for seized property. Illegal drugs
     seized and held as evidence by the DEA have no legal value and are reported in the
     footnotes by quantity only. The analysis of drug evidence is presented in accordance with
     Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-
     Valued Seized and Forfeited Property. The DEA discloses drug evidence that is
     categorized in Schedules 1 through 5 of the Controlled Substances Act. Drugs are
     destroyed when they are no longer needed for evidence.

      L. Liabilities

      The DEA’s liabilities consist of funds or other resources that are likely to be paid by the
      Agency as the result of a transaction or event that has already occurred. However, no
      liability can be paid absent proper budget authority. The federal government can accept
      liabilities for the DEA, when the Agency contractually acts in the sovereign capacity of the
      federal government. Accrued payroll and benefits are accrued based on the number of days
      in a pay period earned but not paid to employees at the end of the quarter.

      Intragovernmental liabilities covered by budgetary resources consist of expenses incurred
      by other Federal agencies for goods or services performed by those agencies on behalf of
      DEA where the DEA has not yet paid them. These expenses are funded by the DEA under
      reimbursable agreements.




                                            - 56 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      M. Contingencies and Commitments

     The DEA is party to various administrative proceedings, legal actions, and claims. The
     balance sheet includes an estimated unfunded liability for those legal actions where
     management and the Chief Counsel consider adverse decisions “probable” and amounts are
     reasonably estimable. Legal actions where management and the Chief Counsel consider
     adverse decisions “probable” or “reasonably possible” and the amounts are reasonably
     estimable are disclosed in Note 14, Contingencies and Commitments. However, there are
     cases where amounts have not been accrued or disclosed because the amounts of the
     potential loss cannot be estimated or the likelihood of an unfavorable outcome is “remote”.
     Reasonably possible losses are not recognized in the balance sheet. Settlements less than
     two thousand five hundred dollars are paid from the DEA’s appropriations. The U.S.
     Treasury Judgment Fund may pay, on behalf of the DEA, amounts in excess of two
     thousand five hundred dollars.

     N. Annual, Sick, and Other Leave

     Annual and compensatory leave earned by the DEA employees but not yet used is recorded
     as an accrued liability. Each year, the liability is adjusted to reflect current pay rates. Any
     portion of the accrued leave for which funding is not currently available is recorded as an
     unfunded liability. Sick leave and other types of non-vested leave are expensed as used.

     O. Interest on Late Payments

     The Prompt Payment Act requires federal agencies to pay invoices owed to vendors for the
     purchase of goods or services within 30 days after the receipt of a proper invoice or after
     the acceptance of the goods or service, whichever is later. Payments made after this date
     must include an interest penalty.




                                            - 57 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      P. Retirement Plans

      On January 1, 1984, the Federal Employees’ Retirement System (FERS) became effective
      pursuant to the Federal Employees’ Retirement System Act. Employees hired after
      December 31, 1983 are automatically covered by FERS and Social Security.

      Employees hired prior to January 1, 1984 can elect to join FERS and Social Security or
      remain in the Civil Service Retirement System (CSRS). For employees covered by CSRS
      the DEA contributes 7.0% of the employees’ gross pay for regular and 7.5% for law
      enforcement officers’ retirement. For employees covered by FERS, the DEA contributes
      11.9% of employees’ gross pay for regular and 26.3% for law enforcement officers’
      retirement. A primary feature of FERS is the Federal Thrift Savings Plan to which the
      DEA automatically contributes 1.0% of an employee’s pay and matches the employee’s
      contribution up to an additional 4.0%. The DEA also contributes the matching share of
      Social Security for FERS participants.

      The accompanying financial statements report expenses incurred by the DEA for required
      contributions made to retirement plans administered by the Office of Personnel
      Management (OPM). In accordance with SFFAS No. 5, Accounting for Liabilities of the
      Federal Government, the DEA recognizes an additional expense for Pension and Other
      Retirement Benefits incurred but not already covered by employee and DEA contributions.
      This expense will ultimately be paid by the OPM and is offset in the accompanying
      financial statements with an imputed financing source.




                                           - 58 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      Q. Federal Employee Compensation Benefits

     The FECA authorizes income and medical cost protection to covered federal civilian
     employees who are injured on the job or who have incurred a work-related occupational
     disease, and to beneficiaries of deceased employees whose death is attributable to a job-
     related injury or occupational disease. FECA benefit claims for the DEA employees are
     initially paid by the Department of Labor (DOL) and subsequently reimbursed by the DEA.

      The DEA’s FECA liability consists of two components: (1) unpaid bills and (2) an
      estimated future cost. Unpaid bills are claims paid by the DOL but not yet billed to or paid
      by the DEA. Estimated future costs are determined by applying actuarial procedures to
      anticipated future costs. The DOL is responsible for calculating the actuarial FECA
      liability for future compensation benefits for all federal agencies. These benefits include
      the liability for death, disability, medical, and miscellaneous costs for approved
      compensation cases. This liability is determined using a paid-losses extrapolation method
      calculated over a 37-year period. This method utilizes historical benefit payment patterns
      that relate to a specific period.

      Projected annual benefit payments are discounted to present value. The resulting liability
      is then distributed by DOL to each benefiting agency. The DOJ calculates and distributes
      each bureau’s respective portion of the total DOJ actuarial liability.

      The actuarial FECA liability is recorded for financial reporting purposes only and is an
      extended estimate of future costs which will not be obligated against budgetary resources
      until the year in which the cost is actually paid by the DEA.

      R. Intragovernmental Activity

      Intragovernmental costs and exchange revenue represent transactions made between two
      reporting entities within the federal government. Costs and earned revenues with the
      public represent exchange transactions made between the reporting entity and a non-federal
      entity. The classification of revenue or cost as “intragovernmental” or “with the public” is
      defined on a transaction-by-transaction basis. The purpose of this classification is to enable
      the federal government to prepare consolidated financial statements, not to match public
      and intragovernmental revenue with the costs incurred to produce public and
      intragovernmental revenue.




                                             - 59 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      S. Revenues and Other Financing Sources

      The DEA’s largest funding source is from congressional appropriations, which are used to
      support DEA’s operations. The DEA also receives reimbursable funding from other
      federal agencies for services performed by the DEA on their behalf. Annual, multi-year,
      and no-year appropriations are used within statutory limitations for operating and capital
      expenditures. Appropriations are recognized as a financing source when related program
      or administrative expenses are incurred.

      The DEA collects exchange revenue from several sources. The largest exchange revenue
      source for the DEA relates to the Diversion Control Program authorized by the Controlled
      Substances Act. This Act requires physicians, pharmacists, and chemical companies to be
      licensed with the DEA to manufacture and distribute certain controlled substances. The
      DEA charges a licensing fee for this service. Each fiscal year, federal statutes require $15
      million of the total fees collected for the Diversion Control Program to be transferred to the
      U.S. Treasury. Diversion Control Program license fees received from public registrants are
      renewed annually or triennially. The unearned portion of the fees is recorded as deferred
      revenue in the accompanying financial statements.

      Certain federal agencies pay expenses on behalf of the DEA where repayment is not
      required. These expenses are considered imputed financing and the DEA records them as
      both a financing source and expense.

      In addition, Agency personnel participate with state and local government organizations in
      the DEA mission related law enforcement task forces. State and local governments look to
      the DEA for expertise in intelligence and investigative support. The DEA Agents also
      participate in joint investigations with a variety of other federal organizations such as the
      FBI, Assets Forfeiture Fund, Office of National Drug Control Policy, and the Organized
      Crime Drug Enforcement Task Force. Prices for the DEA participation in federal, state,
      and local law enforcement activities are established within the applicable reimbursable
      agreement.




                                             - 60 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      The table below summarizes the type of revenue sources and the typical pricing policy for
      exchange revenue:

                       Revenue Source	                              Pricing Policy

       Controlled Substances Act Licensing                          Full Cost, OMB A-25
       State and Local Task Force Participation                     Direct Cost Only
       Joint Intragovernmental Agency Investigations                Direct Cost Only
       Assets Forfeiture Fund                                       Direct Cost Only

      T.	 Earmarked Funds

      The Statement of Federal Financial Accounting Standards No. 27, Identifying and
      Reporting Earmarked Funds, defines ‘earmarked funds’ as being financed by specifically
      identified revenues, often supplemented by other financing sources, which remain available
      over time. These specifically identified revenues and other financing sources are required
      by statute to be used for designated activities, benefits, or purposes, and must be accounted
      for separately from the Government’s general revenues. The three required criteria for an
      earmarked fund are:

      1.	 A statute committing the Federal Government to use specifically identified revenues
          and other financing sources only for designated activities, benefits or purposes;

      2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
          not used in the current period for future use to finance the designated activities,
          benefits, or purposes; and

      3.	 A requirement to account for and report on the receipt, use, and retention of the
          revenues and other financing sources that distinguishes the earmarked fund from the
          Government’s general revenues.

      The Diversion Control Fee account is the only DEA fund meeting these criteria for
      reporting purposes.




                                             - 61 -
                               U.S. Department of Justice

                            Drug Enforcement Administration

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      U. Tax Exempt Status

      As an agency of the Federal Government, DEA is exempt from all income taxes imposed
      by any governing body whether it is a Federal, state, commonwealth, local, or foreign
      government.

      V. Use of Estimates

      The preparation of financial statements requires management to make certain estimates and
      assumptions that affect the reported amounts of assets and liabilities and the reported
      amounts of revenue and expenses during the reporting period. Actual results could differ
      from those estimates.

      W. Reclassifications

      The FY 2011 financial statements were reclassified to conform to the FY 2012
      Departmental financial statement presentation requirements. Changes to the presentation
      of the Combined and Combining Statements of Budgetary Resources were made, in
      accordance with guidance provided in OMB Circular A-136, “Financial Reporting
      Requirements” and as such, activity and balances reported on the FY2011 Combined and
      Combining Statement of Budgetary Resources have been reclassified to conform to the
      presentation in the current year. Certain other prior year amounts have also been
      reclassified to conform with the current year presentation. The reclassifications had no
      material effect on total assets, liabilities, net position, change in net position or budgetary
      resources as previously reported.


      X. Subsequent Events

      Subsequent events and transactions occurring after September 30, 2012 through the date of
      the auditors’ opinion have been evaluated for potential recognition or disclosure in the
      financial statements. The date of the auditors’ opinion also represents the date that the
      financial statements were available to be issued.




                                              - 62 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 2. Non-Entity Assets

      Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
      of the DEA’s non-entity assets are with the public.

      As of September 30, 2012 and 2011

                                                        2012                 2011
       With the Public
        Cash and Monetary Assets                  $          8,912       $      10,143
        Accounts Receivable, Net                             3,737               5,152
             Total With the Public                          12,649              15,295
             Total Non-Entity Assets                        12,649              15,295
             Total Entity Assets                         1,188,471           1,223,890
             Total Assets                         $      1,201,120       $   1,239,185




                                            - 63 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 3. Fund Balance with U. S. Treasury

      The Fund Balance with U.S. Treasury reported on the consolidated balance sheets
      represents the undisbursed portion of all funds recorded in the DEA’s general ledger as of
      each reporting period. The September 30, 2012 and 2011 balances include $7,491 and
      $4,532, respectively, of funds that are restricted for the purchase of official government
      vehicles.

      Restricted unobligated funds consist of expired authority and holdings that were not
      transferred to Treasury but were unavailable for the DEA’s use. Restricted unobligated
      funds are presented in the table below as Unobligated Balance-Unavailable. Restricted
      funds include the collections of fees in excess of amounts budgeted for administering the
      Diversion Control Program. These collections may not be used until authorized by
      Congress.

      As of September 30, 2012 and 2011

                                                                   2012            2011
     Fund Balances
       Special Funds                                          $     109,201    $   106,090
       General Funds                                                585,415        596,380
          Total Fund Balances with U.S. Treasury               $    694,616    $   702,470

     Status of Fund Balances
        Unobligated Balance – Available                        $    127,526    $  118,503
        Unobligated Balance – Unavailable                            39,872        39,789
        Obligated Balance not yet Disbursed                         536,251       554,673
        Other Funds (With)/Without Budgetary Resources              ( 9,033)    ( 10,495)
          Total Status of Fund Balances                       $     694,616    $ 702,470

      Other Funds (With)/Without Budgetary Resources include clearing and deposit accounts,
      imprest fund cash and receipts.




                                            - 64 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 4. Cash and Monetary Assets

      As of September 30, 2012 and 2011

                                                          2012               2011
      Cash
         Undeposited Collections                      $         69       $        48
         Imprest Funds                                       6,364             6,393
         Other Cash                                          8,454             9,694
            Total Cash                                      14,887            16,135

      Monetary Assets
        Seized Monetary Instruments                            450               440
            Total Monetary Assets                              450               440
            Total Cash and Monetary Assets            $     15,337       $    16,575

      Other cash consists of funds used for special purposes.




                                            - 65 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 5. Accounts Receivable, Net

      As of September 30, 2012 and 2011

                                                           2012             2011
       Intragovernmental
           Accounts Receivable                        $     51,930      $    43,655
             Total Intragovernmental                        51,930           43,655
       With the Public
           Accounts Receivable                                7,696
           8,193

           Allowance for Uncollectible Accounts             (2,299)
         (2,195)

              Total With the Public                           5,397
           5,998

              Total Accounts Receivable, Net          $     57,327      $    49,653


Note 6. Inventory and Related Property, Net

      As of September 30, 2012 and 2011

                                                           2012
            2011

       Operating Materials and Supplies
         Held for Current Use                          $      7,588
    $     7,506





                                           - 66 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property

     Analysis of Change in Seized Property:

     Seized property is acquired during the course of an investigation. This property is
     considered contraband, evidence of a crime, or subject to forfeiture. Seized property
     includes monetary instruments, real property, and tangible personal property of others. The
     DEA reports seized property at market value when seized.

     Monetary seized property valued at $450 and $440 was held as evidence by the DEA on
     September 30, 2012 and 2011, respectively, and is included in Cash and Monetary Assets
     on the accompanying balance sheets (also refer to Note 4). The value of non-monetary
     property held as evidence is not reported in the accompanying consolidated balance sheets.
     Adjustments have been made to the beginning balances of seized property as a result of
     reconciling items from prior years.

      The analysis of drug evidence is presented in accordance with Federal Financial
      Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized and
      Forfeited Property. Drug evidence, as presented on the following tables, consists of
      analyzed and bulk drugs. Analyzed drug evidence includes cocaine, heroin, marijuana and
      methamphetamine and represents actual laboratory tested classification and weight in
      kilograms (KG). Since enforcing the controlled substances laws and regulations of the
      United States is a primary mission of the DEA, the DEA reports all analyzed drug evidence
      regardless of seizure weight.

      Bulk drug evidence is comprised of controlled substances housed by the DEA in secured
      storage facilities of which only a sample is taken for laboratory analysis. The actual bulk
      weight may vary from seizure weight due to changes in moisture content over time. Other
      primarily consists of substances, both controlled and non-controlled as defined per the
      Controlled Substances Act (CSA), other than those discussed above.

      Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence
      because unanalyzed drug evidence includes the weight of packaging and drug categories
      are based on the determination of Special Agents instead of laboratory chemists. For these
      reasons, unanalyzed drug evidence is not reported by the DEA.




                                            - 67 -
                                 U.S. Department of Justice

                              Drug Enforcement Administration

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property (continued)
      For the Fiscal Year Ended September 30, 2012
          Seized Property               Beginning                                                Ending
             Category                   Balance      Adjustments**     Seizures    Disposals     Balance
      Seized for Evidence
       Seized Monetary
       Instruments            Value    $       440 $             (5)   $     182   $      167    $      450
       Personal Property      Number            37              (16)           3            5            19
                              Value    $       158 $            (60)   $      23   $       46    $       75
       Non-Valued
        Firearms              Number         3,306             (174)         684          624          3,192
        Drug Evidence
         Cocaine              KG            50,017               662      27,428        30,753        47,354
         Heroin               KG             2,690              (50)       1,108           752         2,996
         Marijuana            KG            14,118             (194)       4,557         4,614        13,867
         Bulk Drug Evidence   KG           278,152               252     995,893       876,653       397,644
         Methamphetamine      KG             6,411                21       3,250         1,856         7,826
         Other                KG            23,683           (1,073)       3,902         5,656        20,856
       Total Drug Evidence                 375,071             (382)   1,036,138       920,284       490,543

      For the Fiscal Year Ended September 30, 2011
          Seized Property               Beginning                                                Ending
             Category                   Balance      Adjustments**     Seizures    Disposals     Balance
      Seized for Evidence
       Seized Monetary        Value
       Instruments                     $       447     $          7    $     207   $      221    $      440
       Personal Property      Number            40              16             2           21            37
                              Value    $       274     $        (6)    $      22   $      132    $      158
       Non-Valued
        Firearms              Number         3,456             (163)         717          704          3,306
        Drug Evidence
         Cocaine              KG           272,088         (222,263)      26,852      26,660          50,017
         Heroin               KG             3,022             (570)         784         546           2,690
         Marijuana            KG            16,071           (1,410)       6,258       6,801          14,118
         Bulk Drug Evidence   KG           227,564             1,043   1,058,390   1,008,845         278,152
         Methamphetamine      KG             7,141           (1,929)       2,565       1,366           6,411
         Other                KG            45,430          (16,753)       3,423       8,417          23,683
       Total Drug Evidence                 571,316         (241,882)   1,098,272   1,052,635         375,071


      **Adjustments include property status and valuation changes received after, but properly
      credited to, prior fiscal years. Valuation changes include updates and corrections to an
      asset’s value recorded in a prior year. During FY 2011, DEA had access to better
      information that allowed the reporting of partial destructions of drugs held for evidence at
      the time of partial destruction rather than at the time the exhibit was fully destroyed.
      Therefore, DEA had recorded an adjustment in the FY 2011 "Adjustments" column of
      (242,925) kg to reflect the partial destruction of exhibits destroyed in prior years.


                                              - 68 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property (continued)

      Method of Disposition of Seized Property:

      During FYs 2012 and 2011, $188 and $213 were returned to parties with a bonafide
      interest, and $25 and $140 were either released to a designated party or transferred to the
      appropriate federal entity under forfeiture or abandonment proceedings. Non-valued
      property was primarily disposed of through destruction.




                                             - 69 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 8. General Property, Plant and Equipment, Net

      As of September 30, 2012             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $          -     $     2,425      N/A
      Construction in Progress                 3,467                   -          3,467      N/A
      Buildings, Improvements, and
         Renovations                          88,211             36,759          51,452     50 yrs.
      Aircraft                               166,684             72,689          93,995   7-20 yrs.
      Boats                                    2,265              1,403             862     18 yrs.
      Vehicles                               106,976             48,507          58,469      5 yrs.
      Equipment                              225,119            151,089          74,030      5 yrs.
      Leasehold Improvements                 232,028            176,616          55,412   5-13 yrs.
      Internal Use Software                   85,123             46,989          38,134   5-10 yrs.
      Internal Use Software in
         Development                           3,534                   -          3,534       N/A
      Total                             $    915,832       $    534,052     $   381,780


      As of September 30, 2011             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $           -    $     2,425      N/A
      Construction in Progress                 6,902                   -          6,902      N/A
      Buildings, Improvements, and
         Renovations                          88,078             30,676          57,402     50 yrs.
      Aircraft                               174,835             69,179         105,656   7-20 yrs.
      Boats                                    2,265              1,282             983     18 yrs.
      Vehicles                                93,990             42,580          51,410      5 yrs.
      Equipment                              214,569            142,286          72,283      5 yrs.
      Leasehold Improvements                 211,416            158,290          53,126   5-13 yrs.
      Internal Use Software                   81,676             33,213          48,463   5-10 yrs.
      Internal Use Software in
         Development                           2,570                  -           2,570       N/A
      Total                             $    878,726        $   477,506     $   401,220

      The DEA purchased $31,894 and $35,924 in capitalized property from federal sources
      during FY 2012 and 2011, respectively. Purchases of capitalized property from the public
      totaled $51,244 and $50,112 during FY 2012 and 2011, respectively.




                                               - 70 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 9. Other Assets

      As of September 30, 2012 and 2011

                                                        2012                 2011
       Intragovernmental
            Advances and Prepayments                $     32,442        $     47,061


Note 10. Liabilities not Covered by Budgetary Resources

      As of September 30, 2012 and 2011

                                                                            2012           2011
       Intragovernmental
         Accrued FECA Liabilities                                       $   27,152     $   27,222
         Other Unfunded Employment Related Liabilities                          40            164
           Total Intragovernmental                                          27,192         27,386

       With the Public
        Actuarial FECA Liabilities                                        158,435        149,846
        Accrued Annual and Compensatory Leave Liabilities                  98,986         98,437
        Deferred Revenue                                                  409,396        358,742
        Contingent Liabilities (Note 14)                                    8,968          7,754
          Total With the Public                                           675,785        614,779
          Total Liabilities not Covered by Budgetary Resources            702,977        642,165
          Total Liabilities Covered by Budgetary Resources                219,898        238,052
          Total Liabilities                                             $ 922,875      $ 880,217




                                           - 71 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 11. Leases

      In the course of operations, the DEA obtains certain property through leasing
      arrangements. These leases may be capital leases or operating leases as defined by SFFAS
      No. 5, Accounting for Liabilities of the Federal Government. The DEA does not act as a
      lessor. The DEA does not currently have any capital leases.

      Noncancelable Operating Leases

      In addition to GSA office space, leased assets are primarily for computer workstations.
      Lease terms are generally one year with an option to renew between three and five years.
      Most leases with GSA are cancelable and may be terminated without incurring charges.

      Future Noncancelable Operating Lease Payments

                                                                             Land and
       Fiscal Year                                                           Buildings
         2013                                                            $           39,236
         2014                                                                        39,767
         2015                                                                        40,011
         2016                                                                        40,197
         2017                                                                        37,249
         After 2017                                                                 233,558
          Total Future Noncancelable Operating
             Lease Payments                                              $         430,018




                                            - 72 -
                                  U.S. Department of Justice

                               Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 12. Seized Cash and Monetary Instruments

       The seized monetary instruments represent liabilities for seized assets held by the DEA
       pending disposition. The DEA may seize monetary instruments as part of its
       investigations. Some seized monetary instruments are retained by the DEA and reported as
       evidence. Seized monetary instruments valued at $450 and $440 was held as evidence by
       the DEA on September 30, 2012 and 2011, respectively, and is included in Cash and
       Monetary Assets on the accompanying balance sheets. The DEA reports all of its
       monetary instruments held as evidence under the heading of seized cash and monetary
       instruments. None of the monetary instruments held as evidence or for safekeeping as
       reported in Note 7 is deposited.


Note 13. Other Liabilities

       As of September 30, 2012 and 2011

                                                                  2012           2011

        Intragovernmental
           Employer Contributions and Payroll Taxes Payable   $     19,854   $     19,035
           Other Post-Employment Benefits Due and Payable               11             44
           Other Unfunded Employment Related Liabilities                40            164
           Advances from Others                                        116              1
           Liability for Clearing Accounts                              74          1,522
              Total Intragovernmental                               20,095         20,766

        With the Public
          Other Accrued Liabilities                                      -               6
          Liability for Nonfiduciary Deposit Funds
           and Undeposited Collections                               2,072              ­
          Other Liabilities                                          8,483          9,714
              Total With the Public                                 10,555          9,720
              Total Other Liabilities                         $     30,650   $     30,486



       All other liabilities are current liabilities.




                                                 - 73 -
                               U.S. Department of Justice

                            Drug Enforcement Administration

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 14. Contingencies and Commitments

      The DEA is party to various administrative proceedings, legal actions, and claims. The
      balance sheet includes an estimated liability for those legal actions where management and
      the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
      estimable.

                                                                               Estimated Range of Loss
                                                    Accrued Liabilities        Lower            Upper
         As of September 30, 2012
               Probable                              $           8,968     $        6,168   $       8,968
               Reasonably Possible                                                  8,940           8,940

         As of	 September 30, 2011
               Probable                             $            7,754     $        7,754   $       7,754
               Reasonably Possible                                                  3,708           3,708




                                              - 74 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds

      Earmarked funds are financed by specifically identified revenues, often supplemented by
      other financing sources, which remain available over time. These specifically identified
      revenues and other financing sources are required by statute to be used for designated
      activities, benefits, or purposes, and must be accounted for separately from the
      Government’s general revenues. Other financing sources include Transfer-In/Out without
      Reimbursement and Imputed Financing from Costs Absorbed by Others.

     Public Law 102–395 established the Diversion Control Fee Account in 1993. Fees charged
     to private sector registrants by the DEA under the Diversion Control Program are set at a
     level that ensures the recovery of the full costs of operating this program. The program’s
     purpose is to prevent, detect, and investigate the diversion of controlled substances from
     legitimate channels, while ensuring an adequate and uninterrupted supply of controlled
     substances required to meet legitimate needs. Strategic objectives include: (1) Identifying
     and targeting those responsible for the diversion of pharmaceutical controlled substances
     through traditional investigation and cyber crime initiatives to systematically disrupt and
     dismantle those entities involved in diversion schemes; (2) Supporting the registrant
     population with improved technology, including E-Commerce and customer support while
     maintaining cooperation, support, and assistance from the regulated industry; (3) Educating
     the public on the dangers of prescription drug abuse and taking proactive enforcement
     measures to combat emerging drug trends; and, (4) Ensuring an adequate and uninterrupted
     supply of controlled substances to meet medical and scientific needs.

     The Diversion Control Fee Account is a separate account in the General Fund of the
     Treasury. Each fiscal year, offsetting receipts of $15 million are deposited in the Diversion
     Control Fee Account for the operation of the Diversion Control Program. These amounts
     remain available until expended and are refunded out of that account by the Secretary of
     the Treasury for reimbursement for expenses incurred in the operation of the Diversion
     Control Program. In order to sustain operations in both the first quarter (each fiscal year,
     federal statutes require $15 million of the total fees collected for the Diversion Control
     Program to be transferred to the U.S. Treasury) and in years where fees collected do not
     equal spending requirements, the Diversion Control Fee Account operates similarly to a
     revolving fund in that excess collections are carried over to the next fiscal year.




                                            - 75 -
                                   U.S. Department of Justice

                                Drug Enforcement Administration

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds (continued)

    As of September 30, 2012 and 2011
                                                                    2012                    2011
                                                              Diversion Control       Diversion Control
                                                                Fee Account             Fee Account
   Balance Sheets
   Assets
     Fund Balance with U.S. Treasury                          $         107,051   $              104,565
     Other Assets                                                        42,699                   46,184
        Total Assets                                          $         149,750   $              150,749


    Liabilities
     Accounts Payable                                         $           7,543   $                6,923
     Other Liabilities                                                  428,094                  375,988
        Total Liabilities                                     $         435,637   $              382,911

    Net Position
     Cumulative Results of Operations                         $       (285,887)   $            (232,162)
        Total Net Position                                    $       (285,887)   $             (232,162)
        Total Liabilities and Net Position                    $        149,750    $              150,749

   For the Fiscal Years Ended September 30, 2012 and 2011
   Statements of Net Cost
     Gross Cost of Operations                                 $         307,498   $              277,514
     Less: Earned Revenue                                               244,354                  195,235
         Net Cost of Operations                                $        63,144    $              82,279


   Statements of Changes in Net Position
     Net Position Beginning of Period                         $       (232,162)   $            (159,279)
     Other Financing Sources                                              9,419                    9,396
        Total Financing Sources                                           9,419                    9,396
     Net Cost of Operations                                            (63,144)                 (82,279)
     Net Change                                                        (53,725)                 (72,883)
     Net Position End of Period                               $       (285,887)   $            (232,162)




                                                  - 76 -
                                   U.S. Department of Justice

                                Drug Enforcement Administration

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 16. Net Cost of Operations by Suborganization
For the Fiscal Year Ended September 30, 2012
                                                        Suborganizations
                                                   All Other          Diversion         Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security with the Rule of Law

    Gross Cost                                 $         111,714    $               -   $      111,714

    Less: Earned Revenue                                  12,630                    -           12,630

    Net Cost of Operations                                99,084                    -           99,084

 Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

    Gross Cost                                         2,530,300           307,498           2,837,798
    Less: Earned Revenue                                 480,019           244,354             724,373
    Net Cost of Operations                             2,050,281            63,144           2,113,425

 Net Cost of Operations                        $       2,149,365    $        63,144     $    2,212,509

For the Fiscal Year Ended September 30, 2011
                                                        Suborganizations
                                                   All Other           Diversion        Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security with the Rule of Law

    Gross Cost                                 $          106,082    $              -   $      106,082
    Less: Earned Revenue                                      693                   -              693
    Net Cost of Operations                                105,389                   -          105,389

 Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

    Gross Cost                                          2,651,491          277,514           2,929,005
    Less: Earned Revenue                                  526,982          195,235             722,217
    Net Cost of Operations                              2,124,509           82,279           2,206,788

 Net Cost of Operations                        $        2,229,898    $      82,279      $    2,312,177




                                                   - 77 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others

     Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-
     reimbursed and under-reimbursed) portion of the full costs of goods and services received
     by the DEA from a providing entity that is not part of the U.S. Department of Justice. In
     accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4,
     Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
     Departmental financing sources recognized by the DEA are the cost of benefits for the
     Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life
     Insurance Program (FEGLI), the Federal Pension plans that are paid by other Federal
     entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
     behalf of the DEA. The Treasury Judgment Fund was established by the Congress and
     funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement
     agreements negotiated by the Department on behalf of agencies, as well as certain types of
     administrative awards. Interpretation of Federal Financial Accounting Standards
     Interpretation No. 2, Accounting for Treasury Judgment Fund Transactions, requires
     agencies to recognize liabilities and expenses when unfavorable litigation outcomes are
     probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

      SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that
      employing agencies recognize the cost of pensions and other retirement benefits during
      their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
      factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
      expected to be paid in the future, and then determine the total funds to be contributed by
      and for covered employees, such that the amount calculated would be sufficient to fund the
      projected pension benefits. For employees covered by Civil Service Retirement System
      (CSRS), the cost factors are 29.8% of basic pay for regular, 50.9% for law enforcement
      officers, and 23.2% regular offset, and 45.2% law enforcement officers offset. For
      employees covered by Federal Employee Retirement System (FERS), the cost factors are
      13.7% of basic pay for regular and 29.7% for law enforcement officers.

      The cost to be paid by the other agencies is the total calculated future costs, less employee
      and employer contributions. In addition, other retirement benefits, which include health
      and life insurance that are paid by other Federal entities, must also be recorded.




                                             - 78 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others (continued)

      For the Fiscal Years Ended September 30, 2012 and 2011 

                                                                 2012            2011

      Imputed Inter-Departmental Financing

         Treasury Judgment Fund                             $       4,020    $     3,814
         Health Insurance                                          48,679         50,614
         Life Insurance                                               198            198
         Pension                                                   28,009         34,603
            Total Imputed Inter-Departmental                 $     80,906    $    89,229


      The U.S. Department of the Treasury makes payments for the Judgment Fund, while the
      OPM pays health insurance, life insurance, and pension amounts in excess of government
      and employee contributions.

      Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
      Managerial Cost Accounting Standards and Concepts, are the unreimbursed portion of the
      full costs of goods and services received by the DEA from a providing entity that is part of
      the Department. Recognition is required for those transactions determined to be material to
      the receiving entity. The determination of whether the cost is material requires
      considerable judgment based on the specific facts and circumstances of each type of good
      or service provided. SFFAS No. 4 also states that costs for broad and general support need
      not be recognized by the receiving entity, unless such services form a vital and integral part
      of the operations or output of the receiving entity. Costs are considered broad and general
      if they are provided to many, if not all, reporting components and not specifically related to
      the receiving entity’s output. The DEA currently does not record any Imputed Intra-
      Departmental Financing Sources.




                                                - 79 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources

      Apportionment Categories of Obligations Incurred:

     The direct and reimbursable obligations under Categories A and B are reported in the table
     below. Apportionment categories are determined in accordance with the guidelines
     provided in Part 4 “Instructions on Budget Execution” of OMB Circular A-11 Preparation,
     Submission and Execution of the Budget. Category A represents resources apportioned for
     calendar quarters and Category B represents resources apportioned for other time periods
     or for activities, projects, objectives or for a combination thereof.

                                                                                           Total
                                                        Direct          Reimbursable    Obligations
                                                      Obligations        Obligations     Incurred
       For the Fiscal Year Ended September 30, 2012
         Obligations Apportioned Under
          Category A                                  $ 2,408,853       $     495,406   $ 2,904,259
          Category B                                       46,045              26,678        72,723
         Total                                        $ 2,454,898       $     522,084   $ 2,976,982

       For the Fiscal Year Ended September 30, 2011
         Obligations Apportioned Under
          Category A                                  $ 2,400,410       $     509,012   $ 2,909,422
          Category B                                       92,367                   -        92,367
         Total                                        $ 2,492,777       $     509,012   $ 3,001,789



      Status of Undelivered Orders:

      Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which
      have not been actually or constructively received. This amount includes any orders which
      may have been prepaid or advanced but for which delivery or performance has not yet
      occurred.

      As of September 30, 2012 and 2011

                                                            2012              2011
                   UDO Obligations Unpaid                 $ 513,670         $ 486,168
                   UDO Obligations Prepaid/Advanced          43,292            60,885
                     Total UDO                            $ 556,962         $ 547,053




                                                - 80 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources (continued)

      Statement of Budgetary Resources vs. the Budget of the United States Government:

      The following table identifies known differences between the DEA’s Statement of
      Budgetary Resources and the Budget of the United States. The reconciliation as of
      September 30, 2012 is not presented because the submission of the Budget of the United
      States Government (Budget) for FY 2014, which presents the execution of the FY 2012
      Budget, occurs after publication of these financial statements. The Department of Justice
      Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget)
      and will be available in early February 2013.

      For the Fiscal Year Ended September 30, 2011
      (Dollars in Millions)

                                                                                   Distributed
                                                 Budgetary        Obligations      Offsetting             Net
                                                 Resources         Incurred         Receipts             Outlays

       Statement of Budgetary Resources (SBR)    $    3,160       $     3,002      $       244       $      2,191

       Funds not Reported in the Budget:
          Expired Funds                                  (46)               (11)                 -                 ­
         Appropriated Trust or Special Fund
           Receipts                                         -                  -                 -            244
         Redistribution of Clearing Accounts
           and Miscellaneous Receipts                     -                 -               (1)                  1
         Other                                            -                 -                 -                (1)
       Budget of the United States Government    $    3,114       $     2,991      $       243       $      2,435



      In addition to the above, reconciliation with the SF-133, Report on Budget Execution and
      Budgetary Resources, was performed. This reconciliation confirmed that differences
      between the Statement of Budgetary Resources and the SF-133 are also the result of the
      adjustments identified above.




                                                - 81 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 19. Net Custodial Revenue Activity

      For the fiscal periods ended September 30, 2012 and 2011, DEA collected $27,595 and
      $97,268, respectively. These collections include $15 million of the total fees collected for
      the cost of operation of the Diversion Control Program and civil monetary penalties related
      to violations of the Controlled Substances Act that were incidental to DEA’s mission.
      Since DEA has no statutory authority to use these funds, DEA transmits them to the U.S.
      Treasury’s General Fund. The DEA has a custodial liability for funds that have not yet
      been transmitted to the U.S. Treasury’s General Fund. The September 30, 2012 and 2011
      balances for custodial liabilities were $3,781 and $5,199, respectively.




                                            - 82 -
                                 U.S. Department of Justice

                              Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

      For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                    2012          2011

      Resources Used to Finance Activities
        Budgetary Resources Obligated
           Obligations Incurred                                                  $ 2,976,982   $ 3,001,789
           Less: Spending Authority from Offsetting Collections and Recoveries       639,612       607,344
           Obligations Net of Offsetting Collections and Recoveries                2,337,370     2,394,445
           Less: Offsetting Receipts                                                 295,736       243,616
           Net Obligations                                                         2,041,634     2,150,829

         Other Resources
           Transfers-In/Out Without Reimbursement                                    (1,374)        14,358
           Imputed Financing from Costs Absorbed by Others (Note 17)                 80,906         89,229
           Net Other Resources Used to Finance Activities                            79,532        103,587
         Total Resources Used to Finance Activities                               2,121,166      2,254,416

      Resources Used to Finance Items not Part of the Net Cost of Operations
           Net Change in Budgetary Resources Obligated for Goods, Services,
              and Benefits Ordered but not Yet Provided                              10,515         20,755
           Resources That Fund Expenses Recognized in Prior Periods (Note 21)          (194)         (171)
           Resources That Finance the Acquisition of Assets                         (83,138)      (86,036)
           Other Resources or Adjustments to Net Obligated Resources
              That do not Affect Net Cost of Operations                              18,001        (8,692)
      Total Resources Used to Finance Items not Part of the Net Cost
          of Operations                                                             (54,816)      (74,144)

      Total Resources Used to Finance the Net Cost of Operations                 $ 2,066,350   $ 2,180,272




                                                 - 83 -
                                   U.S. Department of Justice

                                Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

       For the Fiscal Years Ended September 30, 2012 and 2011                     2012          2011

       Components of Net Cost of Operations That Will not Require

          or Generate Resources in the Current Period


          Components That Will Require or Generate Resources
               in Future Periods (Note 21)                                    $    60,187   $    55,997
             Depreciation and Amortization                                         86,354        78,307
             Other                                                                  (382)        (2,399)

       Total Components of Net Cost of Operations That Will not
          Require or Generate Resources in the Current Period                     146,159       131,905

       Net Cost of Operations                                                $ 2,212,509    $ 2,312,177




                                                 - 84 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 21. 	Explanation of Differences Between Liabilities not Covered by Budgetary
          Resources and Components of Net Cost of Operations Requiring or Generating
          Resources in Future Periods

      Liabilities that are not covered by realized budgetary resources and for which there is not
      certainty that budgetary authority will be realized, such as the enactment of an
      appropriation, are considered liabilities not covered by budgetary resources. These
      liabilities totaling $702,977 and $642,165 on September 30, 2012 and 2011, respectively,
      are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in
      these liabilities result from current year budgetary resources that were used to fund
      expenses recognized in prior periods. Increases in these liabilities represent unfunded
      expenses that were recognized in the current period. These increases, along with the
      change in the portion of exchange revenue receivables from the public, which are not
      considered budgetary resources until collected, represent components of current period net
      cost of operations that will require or generate budgetary resources in future periods. The
      changes in liabilities not covered by budgetary resources and receivables generating
      resources in future periods are comprised of the following:

      For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                    2012             2011
        Resources that Fund Expenses Recognized in Prior Periods
         Decrease in Accrued Annual and Compensatory Leave                      $          -     $     (171)
        Other
         Decrease in Accrued FECA Liabilities                                          (70)                ­
         Decrease in Other Unfunded Employment Related Liabilities                    (124)                ­
           Total Other                                                                (194)                ­
             Total Resources that Fund Expenses Recognized in Prior Periods     $     (194)      $     (171)



        Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods
         Increase in Accrued Annual and Compensatory Leave Liabilities          $      549       $         ­
         (Increase)/Decrease in Exchange Revenue Receivable from the Public           (819)             (62)
        Other
         Increase in Actuarial FECA Liabilities                                      8,589             4,988
         Increase in Accrued FECA Liabilities                                             -              571
         Increase in Deferred Revenue                                               50,654            47,578
         Increase in Contingent Liability                                            1,214             2,826
         Increase in Other Unfunded Employment Related Liabilities                        -               96
           Total Other                                                              60,457            56,059
           Total Components of Net Cost of Operations That Will Require or
            Generate Resources in Future Periods                                $ 60,187          $ 55,997




                                                - 85 -
This page intentionally left blank.




               - 86 -
Required Supplementary Information


            Unaudited





             - 87 -
                                                                       U.S. Department of Justice

                                                                    Drug Enforcement Administration

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                             For The Fiscal Year Ended September 30, 2012



Dollars in Thousands
                                                                                       S&E           Violent Crime       Diversion    Construction       Total
Budgetary Resources



 Unobligated Balance, Brought Forward, October 1                                 $        116,566    $           -   $       41,726   $          -   $    158,292

 Recoveries of Prior Year Unpaid Obligations                                               103,867               -           10,422              -         114,289
 Other Changes in Unobligated Balance                                                           21               -                -              -              21
 Unobligated Balance from Prior Year Budget Authority, Net                                 220,454               -           52,148              -         272,602
 Appropriations (discretionary and mandatory)                                            2,042,232               -          294,223         10,000       2,346,455
 Spending Authority from Offsetting Collections (discretionary and mandatory)              525,078               -              244              1         525,323
Total Budgetary Resources                                                        $       2,787,764   $           -   $      346,615   $     10,001   $   3,144,380

Status of Budgetary Resources

 Obligations Incurred                                                                    2,672,986               -          293,996         10,000       2,976,982
 Unobligated Balance, End of Period:
   Apportioned                                                                              74,906               -           52,619              1         127,526
   Unapportioned                                                                            39,872               -                -              -          39,872
 Total Unobligated Balance - End of Period                                                 114,778               -           52,619              1         167,398
Total Status of Budgetary Resources                                              $       2,787,764   $           -   $      346,615   $     10,001   $   3,144,380

Change in Obligated Balance


 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations, Gross                                                     $         648,402 $          591    $       62,838   $        199   $     712,030
   Less: Uncollected Customer Payments from Federal Sources                                157,357              -                 -              -         157,357
         Total Obligated Balance, Net - Brought Forward, October 1                         491,045            591            62,838            199         554,673
 Obligations Incurred                                                                    2,672,986              -           293,996         10,000       2,976,982
 Less: Outlays, Gross                                                                    2,560,280            254           291,981             24       2,852,539
 Change in Uncollected Customer Payments from Federal Sources                              (28,576)             -                 -              -         (28,576)
 Less: Recoveries of Prior Year Unpaid Obligations                                         103,867              -            10,422              -         114,289

 Obligated Balance, Net - End of Period
   Unpaid Obligations, Gross                                                              657,240             337            54,432         10,175        722,184
   Less: Uncollected Customer Payments from Federal Sources                               185,933               -                 -              -        185,933
 Total Obligated Balance, Net - End of Period                                    $        471,307    $        337    $       54,432   $     10,175   $    536,251


Budgetary Authority and Outlays, Net
 Budget Authority, Gross (discretionary and mandatory)                                   2,567,310               -          294,467         10,001       2,871,778
 Less: Actual Offsetting Collections (discretionary and mandatory)                         496,502               -              244              1         496,747
 Change in Uncollected Customer Payments from Federal Sources
   (discretionary and mandatory)                                                           (28 576)              -                -              -         (28 576)
 Budget Authority, Net (discretionary and mandatory)                             $       2,042,232 $             -   $      294,223   $     10,000   $   2,346,455

 Outlays, Gross (discretionary and mandatory)                                    $       2,560,280   $        254    $      291,981 $          24    $   2,852,539
 Less: Actual Offsetting Collections (discretionary and mandatory)                         496,502              -               244             1          496,747
 Outlays, Net (discretionary and mandatory)                                              2,063,778            254           291,737            23        2,355,792
 Less: Distributed Offsetting Receipts                                                       1,513              -           294,223             -          295,736
 Agency Outlays, Net (discretionary and mandatory)                               $       2,062,265   $        254    $       (2,486) $         23    $   2,060,056




                                                                                - 88 -
                                                                       U.S. Department of Justice

                                                                    Drug Enforcement Administration

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                             For The Fiscal Year Ended September 30, 2011



Dollars in Thousands
                                                                                       S&E           Violent Crime       Diversion    Construction       Total
Budgetary Resources



 Unobligated Balance, Brought Forward, October 1                                 $        154,944    $        251    $       68,090   $       106    $    223,391

 Recoveries of Prior Year Unpaid Obligations                                                88,123              -            13,930             -          102,053
 Other Changes in Unobligated Balance                                                       33,854              -                 -             -           33,854
 Unobligated Balance from Prior Year Budget Authority, Net                                 276,921            251            82,020           106          359,298
 Appropriations (discretionary and mandatory)                                            2,052,818              -           242,674             -        2,295,492
 Spending Authority from Offsetting Collections (discretionary and mandatory)              504,758              -               533             -          505,291
Total Budgetary Resources                                                        $       2,834,497   $        251    $      325,227   $       106    $   3,160,081

Status of Budgetary Resources

 Obligations Incurred                                                                    2,717,931            251           283,501           106        3,001,789
 Unobligated Balance, End of Period:
   Apportioned                                                                              79,056              -            39,447             -          118,503
   Unapportioned                                                                            37,510              -             2,279             -           39,789
 Total Unobligated Balance - End of Period                                                 116,566              -            41,726             -          158,292
Total Status of Budgetary Resources                                              $       2,834,497   $        251    $      325,227   $       106    $   3,160,081

Change in Obligated Balance


 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations, Gross                                                     $         713,986   $       5,267   $       55,666   $      2,124   $     777,043
   Less: Uncollected Customer Payments from Federal Sources                                181,976               -                -              -         181,976
         Total Obligated Balance, Net - Brought Forward, October 1                         532,010           5,267           55,666          2,124         595,067
 Obligations Incurred                                                                    2,717,931             251          283,501            106       3,001,789
 Less: Outlays, Gross                                                                    2,695,393           4,926          262,399          2,031       2,964,749
 Change in Uncollected Customer Payments from Federal Sources                               24,619               -                -              -          24,619
 Less: Recoveries of Prior Year Unpaid Obligations                                          88,123               -           13,930              -         102,053

 Obligated Balance, Net - End of Period
   Unpaid Obligations, Gross                                                              648,402             591            62,838           199         712,030
   Less: Uncollected Customer Payments from Federal Sources                               157,357               -                 -             -         157,357
 Total Obligated Balance, Net - End of Period                                    $        491,045    $        591    $       62,838   $       199    $    554,673


Budgetary Authority and Outlays, Net
 Budget Authority, Gross (discretionary and mandatory)                                   2,557,576               -          243,207              -       2,800,783
 Less: Actual Offsetting Collections (discretionary and mandatory)                         529,376               -              534              -         529,910
 Change in Uncollected Customer Payments from Federal Sources
   (discretionary and mandatory)                                                            24 619               -                -              -          24 619
 Budget Authority, Net (discretionary and mandatory)                             $       2,052,819   $           -   $      242,673   $          -   $   2,295,492

 Outlays, Gross (discretionary and mandatory)                                    $       2,695,393   $       4,926   $      262,399   $      2,031   $   2,964,749
 Less: Actual Offsetting Collections (discretionary and mandatory)                         529,376               -              534              -         529,910
 Outlays, Net (discretionary and mandatory)                                              2,166,017           4,926          261,865          2,031       2,434,839
 Less: Distributed Offsetting Receipts                                                         942               -          242,674              -         243,616
 Agency Outlays, Net (discretionary and mandatory)                               $       2,165,075   $       4,926   $       19,191   $      2,031   $   2,191,223




                                                                                - 89 -
This page intentionally left blank. 





                - 90 -
Other Accompanying Information

         Unaudited




         - 91 -
This page intentionally left blank.




               - 92 -
                                      U.S. Department of Justice 

                                  Drug Enforcement Administration 

                                  Other Accompanying Information 

                                   Combined Schedule of Spending 

                            For the Fiscal Year Ended September 30,2012 

                                        (Dollars in Thousands) 





What Money is Available to Spend?


Total Resources                                                             $   3, 144,380
Less: AmOlmt Available but Not Agreed to Spent                                     127,526
Less: Amount Not Available to be Spent                                              39,872
Total Amounts Agreed to be Spent                                            $   2,976,982



How was the Money Spent?
Personnel Compensation and Benefits
              ll xx      Personnel Compensation                             $   1,027,649
              12xx       Personnel Benefits                                       418,741
              21xx       Travel & Transp0l1ation of Persons                        45,830
              22xx       Transp0l1ation of Things                                  12, 198
Other Program Related Expenses
              23xx       Rent, Communications, and Utilities                     358.642
              24xx       Printing and Reproduction                                 8,1 93
              25xx       Other Selvices                                          777,383
              26xx       Supplies and Materials                                   56,144
              3 1xx      EquipmentIIT Software                                   122,227
              32xx       Leasehold Improvements                                   24,939
              42xx       Insurance Claims and Indemnities                            593

Total Spending                                                                  2,852,539
AmOlUlts Remaining TO be Spent                                                    124,443
Total Amounts Agreed to be Spent                                            $   2,976,982




                                                 - 93 ­
